<html>
<title> - FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR MISSILE DEFENSE PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-48]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

              BUDGET REQUEST FOR MISSILE DEFENSE PROGRAMS

                               __________

                              HEARING HELD

                             MARCH 27, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-954 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
DAVID LOEBSACK, Iowa
                 Frank Rose, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, March 27, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request for Missile Defense Programs.     1

Appendix:

Tuesday, March 27, 2007..........................................    35
                              ----------                              

                        TUESDAY, MARCH 27, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     3
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Campbell, Lt. Gen. Kevin T., Commanding General, U.S. Army Space 
  and Missile Defense Command/Army Forces Strategic Command, U.S. 
  Army...........................................................     9
Green, Hon. Brian R., Deputy Assistant Secretary of Defense for 
  Strategic Capabilities, U.S. Department of Defense.............    13
McQueary, Dr. Charles E., Director, Operational Test and 
  Evaluation, U.S. Department of Defense.........................    11
Obering, Lt. Gen. Henry A., III, Director, Missile Defense 
  Agency, U.S. Air Force.........................................     5

                                APPENDIX

Prepared Statements:

    Campbell, Lt. Gen. Kevin T...................................    68
    Green, Hon. Brian R..........................................    94
    McQueary, Dr. Charles E......................................    88
    Obering, Lt. Gen. Henry A., III..............................    39

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Everett..................................................   118
    Mr. Franks...................................................   120
    Ms. Tauscher.................................................   109
 
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                           Washington, DC, Tuesday, March 27, 2007.
    The subcommittee met, pursuant to call, at 3:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. The committee will come to order.
    The Strategic Forces Subcommittee meets this afternoon to 
receive testimony on the fiscal year 2008 budget request for 
missile defense programs.
    Our witnesses today include Lieutenant General Henry 
Obering, director of the Missile Defense Agency (MDA); 
Lieutenant General Kevin Campbell, commanding general, U.S. 
Army Space and Missile Defense Command; the Honorable James 
McQueary, Department of Defense (DOD) Director of Operational 
Test and Evaluation (DOT&E); and Mr. Brian Green, Deputy 
Assistant Secretary of Defense for Strategic Capabilities.
    Gentlemen, welcome, and thank you for the outstanding 
contributions that you and the people that serve with you make 
to the security of our Nation. This subcommittee greatly 
appreciates your efforts and dedication to your mission.
    I would like to start by making it clear that this 
subcommittee and the full committee have always expressed 
bipartisan support for developing and deploying an effective 
missile defense system. The protection of our Nation and the 
credibility of our last line of defense against a missile 
strike is not a political issue. In the final analysis, we as 
Congress and the Administration are all responsible for 
protecting the American people and our deployed forces against 
missile threats.
    Too often in the past, the Bush Administration has 
attempted to rush the deployment of missile defense with 
overheated rhetoric that had little to do with the actual 
maturity of various elements of the missile defense system. 
That has served only to undermine the end goal. Both Democrats 
and Republicans want these programs to succeed.
    Like many of my colleagues, I voted for the National 
Missile Defense Act of 1999, which stated that, ``It is the 
policy of the United States to deploy as soon as 
technologically possible an effective national missile defense 
system capable of defending the territory of the United States 
against limited ballistic missile attack.'' That policy, which 
became law, continues to be my position.
    We want a system, but we want that system to work. My 
colleagues and I will insist that missile defenses are 
adequately tested before they are deployed. We will do so 
because we believe that effective missile defenses are an 
essential component to our country's over-arching defense and 
national security strategy.
    Last year's defense authorization bill provides us with a 
bipartisan way to proceed on missile defense. That language 
said that DOD should place a high priority on fielding and 
testing near-term missile defense systems such as the Ground-
Based Mid-Course Defense (GMD) System, Terminal High Altitude 
Area Defense (THAAD), Aegis Ballistic Missile Defense (BMD), 
and PATRIOT PAC-3.
    This approach makes sense. It focuses on deploying near-
term capabilities against the real threats we face. To 
effectively defend the American people and our homeland against 
a limited strike by a rogue nation, we must thoroughly test the 
Ground-Based Mid-Course Defense, GMD, System.
    General Obering, I think that the Missile Defense Agency 
has taken significant steps to improve its testing program over 
the past several years. These changes paid off in September of 
2006 when the GMD system completed its first successful 
intercept test since 2002. But challenges remain with MDA's 
test program.
    In its 2006 annual report on the missile defense program, 
the Government Accountability Office (GAO) stated, ``The 
performance of the ballistic missile defense system cannot yet 
be fully assessed because there have been too few flight tests 
conducted to anchor the models and simulations that predict 
overall system performance.''
    Dr. McQueary, I would like to hear your thoughts about 
GAO's conclusions and your assessments of MDA's efforts to 
conduct additional end-to-end testing, a DOT&E recommendation. 
Furthermore, I also appreciate your candid assessment of any 
possible limitations that you are experiencing in doing your 
job. Do your responsibilities for ensuring testing match your 
authorities? If not, what additional authorities do you need?
    General Obering, I would be interested in hearing how you 
plan to address the concerns that have been raised about MDA's 
testing program by GAO and DOT&E. We also need to ensure that 
our warfighters receive the capabilities and support they need 
to protect the American people, our deployed forces and our 
allies.
    General Campbell, I would like to know whether you believe 
the warfighter is playing a large enough role in setting the 
future priorities for the missile defense system. Furthermore, 
I would also like to know if you think that MDA's current 
organizational structure, with its focus on research and 
development, is structured appropriately to provide optimal 
support to the warfighter.
    Finally, given the mutual threats we face, it is critical 
that we work with our allies on missile defense systems. Over 
the past several years, there have been a number of success 
stories in this area, such as our cooperation with Israel and 
Japan. In the fiscal year 2008 budget request, the 
Administration is requesting funds to establish a GMD 
interceptor site in Europe.
    I strongly support the need to work with our European 
allies on missile defense, but I am concerned that the Bush 
Administration's current proposal to move forward with the 
proposed deployment on a bilateral basis with Poland and the 
Czech Republic has not been sufficiently coordinated with North 
Atlantic Treaty Organization (NATO).
    As vice chair of the NATO Parliamentary Assembly, I take 
our relationship with the Alliance very seriously. Over the 
past several months, many European officials, including some 
from Poland and the Czech Republic, have expressed concern that 
the Bush Administration's proposal lacks a strong NATO 
foundation. I know that sometimes it is faster to work with a 
coalition of the willing, but such coalitions usually don't 
have strong foundations.
    Therefore, Mr. Green, the committee needs to know whether 
and how the Administration plans to provide a stronger 
multilateral foundation for its proposal.
    On that note, let me turn the floor over to my very good 
friend, the distinguished Ranking Member of the subcommittee, 
Mr. Everett of Alabama.
    Mr. Everett, the floor is yours.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. I thank my chairman and colleague. I join you 
in welcoming our guests also.
    Let me join the chairman in thanking you for your 
leadership and please extend our thanks to the many men and 
women in your different organizations for their dedication, 
hard work and sacrifices that they are making on behalf of this 
Nation.
    As we begin our discussion on our Nation's missile defense 
posture and budget request, I will note that missile defense 
has not always received bipartisan support. It has in the more 
recent hearings that we have had, particularly in this 
subcommittee and in the House Armed Services full committee.
    But in last year's floor debate on the defense bill, an 
amendment was offered to cut MDA's budget by half. However, 
missile defense has enjoyed bipartisan support, as I said, in 
this committee. I want to personally thank the chairman for 
making her first subcommittee trip to Huntsville to focus on 
missile defense.
    This subcommittee also has a strong history of working 
through areas where we may disagree. We ask tough questions and 
approach issues with thought and rigor. We respect each other's 
opinions and recognize that at the end of the day, we are here 
because we believe we must do all we can to increase the 
Nation's security.
    In missile defense, it is important to reflect upon the 
events of the last year. On July 4, North Korea launched six 
short- and medium-range ballistic missiles capable of reaching 
our foreign-deployed forces and allies, and one longer-range 
missile potentially capable of reaching Hawaii and the Western 
U.S. Three months later, North Korea tested a nuclear device.
    Iran continues to develop and test short- and medium-range 
ballistic missiles capable of reaching Israel and Europe. This 
includes a space-launch vehicle that could provide a cover for 
developing a longer-range missile. Iran has also continued 
efforts to enrich uranium in defiance of the United Nations 
(U.N.) Security Council. Worldwide proliferation of missile 
technology also continues.
    Last, two months ago, China conducted an anti-satellite 
test using a medium-range ballistic missile. The threat is 
clearly at hand. While I continue to support a measured 
approach to testing, I strongly believe that we cannot afford 
to slow down the development and thwarting of those near-term 
missile defense elements crucial to our Nation's defense.
    I also firmly believe that we must extend this protective 
coverage to our allies and friends. This year's Missile Defense 
Agency budget request is $8.9 billion. That is a decrease from 
last year and already reflects a reduction of over $500 
million. So the Ground-Based Mid-Course Defense System in 
Alaska and California is a flagship capability in our Nation's 
national missile defense system.
    I would like to note the breadth of our capabilities being 
funded within MDA's budget request: Aegis BMD, including work 
with Japan, air development with Israel, THAAD, ground-based 
early warning radar, a global command and control network, 
Federal space programs, Airborne Laser (ABL) and Kinetic Energy 
Interceptor (KEI), and a test program consisting of 25 fly and 
ground tests planned for fiscal year 2008.
    General Obering, I would like to highlight a few specific 
areas that I am interested in hearing about today. Last year, 
this committee exerted its long preference for building near-
term missile defense capabilities. Please describe how this 
year's budget reflects that congressional guidance. Also in 
last year's bill, Congress provided resources for concurrent 
tests, training and operation. I look forward to hearing how 
this is being funded.
    General Campbell, I believe that this is the first time you 
have appeared before us. Thank you for coming.
    I would like you to describe your role as the Joint 
Functional Component Commander (JFCC) for U.S. Stragegic 
Command (STRATCOM), and your relationship with MDA and the 
services; how you ensure that combatant commanders' missile 
defense needs are met. Pacific Command (PACCOM) and the U.S. 
Forces Korea (USFK) commanders recently testified before the 
full committee stating their need for more PATRIOT PAC-3 and 
Aegis BMD inventories and continued development of THAAD.
    Dr. McQueary, I am interested in your assessment of MDA's 
end-to-end testing. What areas are progressing well and where 
do you think they could have an improvement?
    Last, Mr. Green, I am interested in hearing your 
perspective on whether the events of the past year have 
modified our approach to missile defense, and the status of our 
engagement with our international partners in cooperation on 
missile defense.
    As the chairman has noted, the European missile defense 
site is a key issue this year. We must understand how this site 
benefits our security and what we are doing to engage our 
European friends.
    Again, I want to thank you for taking time out of your busy 
schedules to be with us today. I look forward to your 
testimony, and I look forward to my chairman calling this 
hearing because missile defense is one of the most important 
things that we do.
    Thank you, Madam Chairman.
    Ms. Tauscher. I thank the distinguished ranking member.
    He is right. Last year there was an amendment offered on 
the floor to significantly cut the MDA budget. I am happy to 
report that he is right. It was defeated by a bipartisan 
effort. So I think that there has been strong bipartisan 
support for a strong defensive missile shield.
    Gentlemen, you have submitted very comprehensive testimony. 
We appreciate that, but we would like to get to questions. If 
you wouldn't mind giving us a short summary, five minutes or 
less, then we can move to questions. We would appreciate it. 
All of your statements have been submitted to the record.
    General Obering, please begin.

STATEMENT OF LT. GEN. HENRY A. OBERING, III, DIRECTOR, MISSILE 
                 DEFENSE AGENCY, U.S. AIR FORCE

    General Obering. Thank you very much, Madam Chairman, 
Congressman Everett and distinguished members of the committee.
    As Congressman Everett stated, on July 4, 2006, North Korea 
did launch seven missiles capable of striking our allies and 
our deployed forces in the Western Pacific, and also launched a 
Taepo Dong 2 long-range missile believed to be capable of 
striking the Western United States.
    Had these launches taken place just three years earlier, we 
would have had no capability to defend ourselves. This time, 
because of the efforts of thousands of Americans dedicated to 
this program, the steadfast support of Congress, and an 
innovative acquisition strategy that we have been allowed to 
pursue, we were able to provide the President with an option to 
activate an integrated missile defense system, a system that I 
am confident would work effectively.
    In November 2006 and January 2007, Iran demonstrated near-
simultaneous launches of almost a dozen ballistic missiles and 
rockets. In fact, the number of foreign ballistic missile 
launches this year is at a rate double that of last year. This 
reflects the determination of many countries to acquire these 
valuable weapons, a value that is generated, by the way, by the 
historic lack of deployed defenses against them.
    The consequences of this vulnerability are significant. A 
rogue nation could use these weapons for coercion or 
intimidation. As these missiles proliferate, access becomes 
easier and missile-capable terrorists could emerge.
    Therefore, it is critical that we continue to develop, 
field and deploy missile defenses to de-value these weapons and 
protect ourselves, our allies and our friends. To address these 
threats, we are requesting $8.9 billion in 2008, with more than 
75 percent of these funds, or $7.1 billion, going to near-term 
capabilities and the remainder, or $1.8 billion allocated to 
develop defenses against threats that may loom tomorrow. If we 
get this balance wrong, we will be unable to defend ourselves 
sooner or later.
    This budget reflects a three-part program strategy: to 
maintain and sustain our initial capability; to close the gaps 
and improve this capability; and to develop options for future 
uncertainties.
    First, we seek $5.9 billion to maintain and sustain an 
initial capability to defend the homeland against long-range 
threats and to protect deployed forces, allies and friends 
against the shorter- to medium-range threats. We intend to 
complete the fielding of up to 44 long-range interceptors in 
Alaska and California; deploy up to 132 sea-based interceptors 
on 18 Aegis ships; and deploy 2 mobile terminal high altitude 
area defense units with 48 interceptors.
    Sustaining this capability is now approaching $1 billion a 
year. To effectively utilize these capabilities, we need to 
expand our command, control, battle management and 
communications elements, both at home and abroad. This element 
is the centerpiece of our system and without it there is no 
integrated layer of defense.
    Second, we seek $1.6 billion to close the gaps and improve 
our capability to keep pace with growing threats. This 
objective includes the fielding of 10 long-range interceptors 
and a mid-course radar in Europe. We have entered into 
discussions with Poland and the Czech Republic to host these 
assets. These countries represent locations which maximize the 
coverage of Europe and the United States against an Iranian 
threat.
    At the same time, we have been engaged with our NATO 
partners and Russia to explain to NATO our missile defense 
plans and the inability of these sites to threaten Russia's 
strategic deterrent. Another aspect of the effort to improve 
our defenses is the development of the land- and sea-based 
volume kill capability that can defeat the more complex threats 
that we believe will emerge from North Korea and Iran.
    Our multiple-kill vehicle (MKV) program will allow us to 
engage multiple warheads and countermeasures from a single-
threat missile with a single interceptor. Delivering this 
volume kill capability to the warfighters and for all of our 
mid-course interceptors is one of our top development 
priorities.
    Finally, we request $1.4 billion for the third component of 
our strategy to develop options for future threats. In this 
phase, defenses can destroy an enemy missile when it is most 
vulnerable. The Airborne Laser is our primary boost-phase 
program, but we are maintaining the option of using a Kinetic 
Energy Interceptor as a boost-phase system if the Airborne 
Laser does not achieve its knowledge points during testing.
    In addition, we believe that persistent global detection 
and tracking will be required to deal with future 
uncertainties. Our space tracking and surveillance system 
program and our advanced technology efforts are focused on 
support of this goal.
    Next, I would like to discuss the underlying acquisition 
approach that has allowed us to rapidly and effectively field a 
missile defense capability where none existed before.
    In January of 2002, based on our test results and the 
evolving rogue nation threat, MDA was directed to deploy an 
integrated and layered missile defense as quickly as possible. 
The Department's traditional acquisition process could not meet 
this task. In its place, we instituted an evolutionary process 
called capabilities-based spiral development. This approach 
gives the agency the flexibility to properly manage risk and 
therefore rapidly develop, test and field capability to the 
warfighter, while continually upgrading the system.
    As a result, in just over 30 months, since June of 2004, we 
have in place 17 long-range interceptors in Alaska and 
California. We have modified 16 Aegis ships for missile 
tracking, with 7 of those able to launch the 20 sea-based 
interceptors that we have fielded. We have upgraded three land-
based early warning radars, delivered two transformer radars, 
and one massive sea-based X-band radar, and fielded kinetic 
control capabilities in Hawaii, Alaska, Colorado, Nebraska, 
Washington, D.C., and the United Kingdom. Using capability-
based acquisition, we have achieved in two and a half years 
what would have taken two or three times longer with the 
standard process.
    The inclusion of U.S. Strategic Command and other combatant 
commands in our development, test, and fielding activities has 
been another key to our success. Our cooperation with these 
commands and the services is comprehensive and occurs at almost 
every level. We work with them to define and prioritize new 
requirements as the system evolves. We have worked with the 
services to complete an element, transition, and transfer plan 
to allow them sufficient lead time to budget for operations and 
support.
    MDA's cooperation with the warfighter was exemplified 
during the North Korean ballistic missile launches this past 
summer. MDA and the military operators worked side-by-side to 
transition the system to operational alert. As a result, our 
country was able to defend itself against a potential threat.
    To verify the viability of our system, we have taken on the 
challenge of realistically testing an enormous, complex system 
that covers ten time zones and that intercepts warheads not 
only in the atmosphere, but in space. We have designed a test 
approach that not only demonstrates the technical maturity of 
the system, but also demonstrates its ability to provide 
warfighting capability.
    Our test programs involve modeling simulations, numerous 
element and system ground tests and flights tests with the 
components operating together under conditions that are 
operationally realistic. This testing has increased our 
confidence in the system. In particular, this past September, 
we conducted a long-range intercept flight test that involved 
the use of operational crews and operational fire control and 
fielded software.
    We also used operational sensors and an operational 
interceptor launched from an operational missile field. Over 
the past year, the Missile Defense Agency conducted more than 
35 major tests, successfully meeting our primary test 
objectives on 14 of 15 flight tests.
    Overall, since 2001, we built a record of 24 successful 
hit-to-kill engagements in 32 attempts. A critical aspect of 
our test program has been the participation of the directorate 
of operational test and evaluation in a combined test force. 
This force merges requirements for both developmental and 
operational capability testing and works daily with the 
independent operational test agencies to ensure that they 
concur with our objectives and processes.
    We understand and embrace the importance of rigorous, 
realistic testing, which is why more than 20 percent of our 
fiscal year 2008 budget, over $2 billion, has been directed for 
this purpose. Our test schedule remains very aggressive and is 
limited not by funding, but by the capacity of our range 
infrastructure to conduct tests in rapid succession, and by our 
ability to absorb and incorporate each test lessons into 
succeeding tests.
    For the remainder of this year, we plan to conduct two 
long-range intercept flight tests, four Aegis flight tests, 
three THAAD flight tests, an Israel Arrow test and dozens of 
ground tests. As I discussed earlier, the deployment of ground-
based interceptors and an associated mid-course radar in Europe 
is critical to the defense of our allies and will help protect 
the United States from long-range tests from the Middle East.
    We intend to deploy an initial capability by 2011. Japan 
remains one of our closest partners in missile defense. In 
March of 2006, we successfully flight-tested new nose-cone 
technologies developed in cooperation with Japan. The Missile 
Defense Agency and the Japanese Ministry of Defense are agreed 
to co-develop a larger version of our sea-based interceptor, 
which will improve our defensive capabilities against longer-
range missiles.
    The upgraded Royal Air Force Flyingdales Radar in the 
United Kingdom will undergo operational testing this year and 
we are working closely with Denmark to upgrade the Thule early 
warning radar in Greenland. We also are continuing to work with 
Israel to examine a number of options for them to improve their 
capability to defeat longer-range missiles, as well as to 
develop new shorter-range missile defenses.
    We have now signed cooperative agreements with Australia 
and Italy, and begun discussions on missile defense 
collaboration with many other nations.
    I am proud that the Missile Defense Agency has provided 
this Nation with a significant defensive capability within our 
fiscal constraints. Our acquisition flexibility has allowed us 
to implement numerous cost-saving measures, such as 
infrastructure reductions, support systems consolidation and 
program adjustment.
    For example, we have reduced our infrastructure overhead by 
approximately $1.8 billion from fiscal year 2006 to 2011. More 
specifically, we saved enough funds from unneeded overhead 
reduction in the Ground-Based Mid-Course Program alone to 
purchase four more long-range interceptors.
    In closing, I want to emphasize that the threat that we are 
facing from ballistic missiles is real and growing. Ballistic 
missile defense is expensive, but the cost pales in comparison 
to the enormous price that this Nation would pay in lives lost, 
property destruction and economic devastation from even a 
single missile attack.
    The success that we have experienced in our test program 
indicates that there is absolutely no reason to slow down our 
efforts. We have overcome test setbacks and technical hurdles, 
but thanks to the support from Congress, we are succeeding in 
our mission.
    As we look to the gathering clouds of ballistic missile 
threats on the horizon, now is not the time to cut back on 
support for missile defense, but to advance it.
    Thank you very much, Madam Chairman. I would appreciate the 
opportunity to answer your questions.
    [The prepared statement of General Obering can be found in 
the Appendix on page 39.]
    Ms. Tauscher. Thank you, General Obering.
    General Campbell, once again, your statement has been 
submitted to the record. If you could summarize, I would 
appreciate it. Thank you.

 STATEMENT OF LT. GEN. KEVIN T. CAMPBELL, COMMANDING GENERAL, 
    U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND/ARMY FORCES 
                  STRATEGIC COMMAND, U.S. ARMY

    General Campbell. Madam Chairman, Congressman Everett, 
distinguished members of the committee, thank you for your 
ongoing support of our warfighters and for the opportunity to 
appear before this panel.
    This committee has been a strong ally of the Army and the 
missile defense community. I will discuss the role of the 
warfighter in operating the system and our role in the 
development process with MDA.
    In one of my roles, I serve as the Joint Functional 
Component Command for integrated missile defense under the 
United States Strategic Command, General James E. Cartwright. 
In this joint role, I am responsible for directly supporting 
the command of the United States Strategic Command to globally 
plan, integrate and coordinate missile defense operations.
    The Joint Functional Command operationalizes proven 
capabilities from the Missile Defense Agency, develops global 
missile defense plans in collaboration with the geographic 
combatant commanders, and we conduct cross-geographic combatant 
commander exercises to ensure that commanders, staffs and 
missile defense crews are prepared to employ the fielded 
ballistic missile defense system.
    In July 2006, we successfully placed today's fielded 
capabilities on alert in response to a credible threat from 
North Korea. Our response to this threat demonstrated our 
ability to operate the system on a sustained basis and 
dynamically plan, integrate, and coordinate military operations 
across three combatant command headquarters, as well as other 
government agencies.
    Specifically, the Joint Functional Command coordinated 
mission activity across the combatant commands. And, Madam 
Chairman, during your visit to the Joint Functional Command a 
few weeks ago, you saw first-hand the maturity of that 
operation. Army forces under Northern Command (NORTHCOM) 
operated the Ground-Based Mid-Course fire control system.
    Air forces under the control of STRATCOM operated long-
range and space-based sensors. The Navy forces under the 
operational control of the United States Pacific Command 
operated Aegis long-range search and track radar systems in the 
Sea of Japan and the Pacific Ocean.
    And the Defense Intelligence Agency (DIA) oversaw the 
employment of the Cobra Dane radar at Shemya, Alaska. As was 
demonstrated this past summer, the joint team is trained and 
ready and operating the Ground-Based Mid-Course System today. 
In my view, our success during last summer's contingency served 
as a testimony to the effectiveness of our warfighter exercise 
program, as well as the Missile Defense Agency's test program.
    During the past 12 months, we have effectively planned and 
conducted 3 major combatant command-level exercises and 
participated in several Ground-Based Mid-Course System tests, 
both in defining objective and crew-level direct participation. 
The exercises, combined with the test participation with MDA, 
have enabled us to improve our staffs' and crews' proficiency 
in operating a missile defense system and increased our 
confidence in the effectiveness of the fielded missile defense 
capabilities.
    Lessons we learned during these activities we use to 
improve our operating concepts for both the planning for and 
the execution of the missile defense mission. We anticipate 
significant advancements in the Ground-Based Mid-Course System 
over the next four years, with potential deployments to the 
European-based sites, deployments we see as essential for 
improving the defense of the homeland and extending coverage to 
our forward-deployed forces and allies.
    We have initiated planning with the European Command 
(USEUCOM) staff and intend on sending a joint team made up of 
combatant command representatives, the Missile Defense Agency, 
and others to work closely with European Command in developing 
a concept of operations, a logistics plan, and an 
infrastructure plan.
    As we look to the future, we will continue to advocate for 
system improvements that narrow and close capability gaps and 
improve system performance. U.S. Strategic Command has created 
the warfighter involvement process, a disciplined methodology 
for capturing combatant commanders' desired capability and 
delivering them to the Missile Defense Agency. Annually, we 
provide MDA our input in the form of a prioritized capability 
list.
    This is a direct means for warfighters to influence and 
shape both present and future missile defense capabilities. As 
examples of our priorities, we have advocated for improvements 
in command and control and further development of capabilities 
such as the multiple-kill vehicle. It will provide us a range 
of capabilities for meeting threat advancements.
    I mentioned earlier that I have a joint role as Commander 
of the JFCC. My other responsibility is the Army's Senior 
Commander for Space and Missile Defense. This entails ensuring 
our warfighters are provided with enabling space and tactical 
defense capabilities to defeat theater ballistic missiles. To 
enhance current capabilities, the Army is continuing its 
transformation of air and missile defense forces to meet 
increasingly sophisticated and asymmetric threat environments 
encountered by today's warfighters.
    Meeting the short-range ballistic and cruise missile 
threats continue to grow, especially in light of the ever-
increasing proliferation of missile defense technology. To 
address these threats, the Army is transforming its air defense 
force from its current separate systems architecture to a 
component-based net-centric, integrated air and missile defense 
system of systems that include such resources as PATRIOT, the 
surface-launched medium-range advanced air-to-air missile, and 
an elevated net sensor, and in the near term, the Terminal 
High-Altitude Area Defense system.
    This transformation of missile defense capabilities will 
allow joint-force commanders to scale and tailor assets and 
forces based upon the specific operating environment in which 
they are employed. With the help of this committee, we will 
continue forward progress in developing, deploying and fielding 
an integrated missile defense of our homeland, deployed forces, 
friends and allies.
    I appreciate having the opportunity to speak on these 
important matters, and ask that my written statement be 
submitted for the record, and look forward to addressing any 
questions you or other committee members may have.
    [The prepared statement of General Campbell can be found in 
the Appendix on page 68.]
    Ms. Tauscher. Without objection. Thank you, General 
Campbell.
    Dr. McQueary, welcome.

  STATEMENT OF DR. CHARLES E. MCQUEARY, DIRECTOR, OPERATIONAL 
        TEST AND EVALUATION, U.S. DEPARTMENT OF DEFENSE

    Dr. McQueary. Thank you very much. It is a pleasure to be 
here today to have a chance to give you an operational test and 
evaluation (OT&E) perspective on ballistic missile defense.
    I will be very brief. I do have four quick points that I 
want to make.
    First, I want to review quickly what I believe the 
successes are of this past year for ballistic missile defense 
systems (BMDS). Second, I would like to give you my current 
assessment of the capability of BMDS. And third, I would like 
to provide a status of recommendations in the fiscal year 2005 
and fiscal year 2006 annual reports published by us. And 
fourth, I will discuss the factors that will limit our ability 
to be able to provide an aerial block-six assessment as 
required by the fiscal year 2006 National Defense Authorization 
Act.
    I am going to summarize the first point about missile 
defense and simply say missile defense had a very good year of 
testing, and I will not go into the specifics because that 
information is included in the record.
    On the second assessment, I think it is worth saying a few 
words about that. In the 2005 hearing, DOT&E reported that the 
integrated ground test results indicated the test bed had the 
potential to defend against a limited attack under certain 
conditions.
    However, the difficulties in the flight test program 
delayed confirmation of that capability. During the 2006 
hearing, DOT&E reported that the results of the ground test 
demonstrated that integration, interoperability, tactics, 
doctrine and procedures were adequate to increase confidence in 
these aspects of the system.
    The MDA testing program during 2005 was adequate and 
appropriate to the developmental maturity of BMDS. Today, I can 
state that BMDS has demonstrated a limited capability against a 
simple foreign threat. Coupled with the success of other 
element and level testing and MDA's integrated ground tests, 
the BMDS is definitely maturing. My assessment is bolstered by 
the fact that MDA is increasing the operational realism of each 
successive test, and I think that is a very crucial point.
    Madam Chairman, in your invitation to address the 
committee, you asked me to provide an assessment of MDA's 
implementation of the recommendations in the last two DOT&E 
annual reports. That is what I want to quickly do now. There 
were 26 recommendations in the fiscal year 2005 annual report. 
Only four recommendations are still open, and MDA is acting on 
each of them. Two involve ongoing data collection, and one 
involves a future test schedule, and one deals with the test 
planning process.
    There are 15 new recommendations in the fiscal year 2006 
annual report. Many of these new recommendations involve 
demonstrations of specific capabilities during actual intercept 
tests. MDA is actively considering these recommendations and 
has already added several to the test schedule.
    As you know, I only advise MDA on its developmental test 
program. However, I am satisfied with MDA's response to the 
recommendations in our annual reports, and I am pleased that 
General Obering and his staff recognize the value of our 
suggestions and recommendations. A more capable MDS is our 
mutual goal.
    And then the fourth item is, despite the successes, BMDS is 
still maturing as a system, which makes it difficult for me to 
assess block-six capability as required by the fiscal year 2006 
National Defense Authorization Act. First, to be confident in 
my assessment of effectiveness, I need validated models and 
simulations for the BMDS that only exists today because MDA 
doesn't have enough flight test data to anchor them.
    I suspect General Obering and I will have a chance to 
comment more upon that because I think that is a key point. 
MDA, the multi-service BMDS operational test agency team, and 
DOT&E personnel are working together to solve this problem. I 
am quite pleased with the way that is progressing. However, 
there may be insufficient time to fix this problem before we 
finalize the block-six report, which we will finish at the end 
of this year.
    While these models and simulations will be essential to 
proving the operational capability of BMDS, we cannot use 
models and simulations as substitutes for live testing. Both 
General Obering and I agree on this important issue. MDA's 
testing must be sufficient to have high confidence that the 
models and simulations are valid representations of the actual 
performance and capabilities of BMDS.
    Second, I will have difficulty assessing suitability, 
whether reliability, maintainability, or availability of the 
system. BMDS has not operated long enough to gather 
statistically significant data on its RAM, reliability, 
availability and maintainability, although the tests to date 
are very encouraging. MDA and the warfighters are collecting 
the data, but the amount may be insufficient to reach confident 
conclusions about the suitability, and this gets into 
statistics and things of that sort that I am alluding to.
    So in conclusion, MDA expects a good year of its ground and 
flight test programs. Individual element successes indicate 
their capabilities. Integrated ground testing of the BMDS is 
demonstrating that the warfighters understand and can operate 
the system confidently and effectively. There is still a long 
way to go, but MDA's disciplined and principled approach to 
flight and ground tests is starting to pay real dividends.
    That concludes my remarks. Thank you for the opportunity to 
be here.
    [The prepared statement of Dr. McQueary can be found in the 
Appendix on page 88.]
    Ms. Tauscher. Thank you, Dr. McQueary.
    Deputy Assistant Secretary Green, welcome back.
    Secretary Green. Thank you.
    Ms. Tauscher. It wasn't too long ago that you were sitting 
on this side of the table.
    Secretary Green. I can't help but notice that the view is 
different from this side of the table. [Laughter.]
    Ms. Tauscher. It is a little different from this side, too, 
but we are happy to have you back, and thank you for your 
longstanding service to the American people. If you could 
summarize your testimony, we would appreciate it. Your 
statement is in the record. Please proceed.

STATEMENT OF HON. BRIAN R. GREEN, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR STRATEGIC CAPABILITIES, U.S. DEPARTMENT OF DEFENSE

    Secretary Green. Chairman Tauscher, Ranking Member Everett, 
members of the subcommittee, it is a pleasure to appear before 
you today to discuss the policy and strategic rationale 
underpinning the fiscal year 2008 missile defense budget 
request. I would like to thank the chairman and the ranking 
member and all the members of the subcommittee for their 
support of missile defense.
    Upon taking office in 2001, President Bush directed us to 
field an initial missile defense capability by 2004 and to 
improve it over time to meet the changing threat and to take 
advantage of emerging technology. He also directed us to extend 
the benefits of missile defense to our friends and allies.
    I would like to discuss today our progress in meeting this 
direction and focus on an effort that is key to enabling us to 
meet these goals: the deployment of U.S. missile defenses in 
Europe. Missile defense continues to be one of the 
Administration's highest priorities, driven by rapidly evolving 
missile threats. Aggressive and unpredictable adversaries, such 
as Iran and North Korea, continue to challenge our notions of 
deterrence and defense.
    Surprise--strategic, tactical and technical--is an expected 
feature of the post-Cold War strategic environment. In this 
environment, we can no longer rely solely on offensive 
capabilities to deter our adversaries, and must have other 
options, including an active, layered defense that both 
reinforces deterrence and hedges against its potential failure.
    I am pleased to report that we have made substantial 
progress and rapid progress in meeting the President's 
direction to deploy missile defense capabilities. We now have 
ground-based interceptors deployed in Alaska and California; 
sea-based interceptors deployed aboard the Aegis ships; more 
PATRIOT PAC-3 interceptors; sensors on land and sea and in 
space; an evolving command and control system; and trained 
warfighters on-station. My colleagues seated with me at the 
table today, who represent the developers, testers and 
warfighters, deserve the Nation's gratitude.
    We are also making progress in missile defense cooperation 
with our allies and friends. Today, 15 countries, including 9 
NATO countries alone, are engaged in missile defense efforts of 
some kind, whether by hosting key facilities or assets on their 
territory, or actively discussing this possibility; pursuing 
R&D programs; or signing cooperative agreements with the U.S. 
for maintaining capabilities. In addition to the U.S., the list 
includes Australia, the Czech Republic, Denmark, France, 
Germany, Italy, Israel, India, Japan, the Netherlands, Poland, 
Taiwan and the U.K.
    In January of this year, President Bush directed us to 
proceed with negotiations to base U.S. long-range missile 
defenses in Europe. These defenses are intended to counter the 
increasing Middle Eastern missile threat. Our intelligence 
community (IC) assesses that Iran would be able to develop an 
Intercontinental Ballistic Missile (ICBM) capability before 
2015 if it chose to do so, and we must start now in order to 
address this threat in a timely manner.
    Current plans call for basing in Poland 10 ground-based 
interceptors, similar to those currently deployed in Alaska and 
California, and a mid-course radar in the Czech Republic. An 
existing radar at the Reagan Test Range will be refurbished and 
moved to the Czech Republic for use as the European mid-course 
radar.
    Negotiations are ongoing and pending a successful outcome, 
work is planned to begin at the sites in 2008. These missile 
defense assets would be integrated with existing radars in 
Flyingdales, United Kingdom and Thule, Greenland, as well as 
the U.S. Ground-Based Mid-Course System.
    The deployment of U.S. missile defense assets in Europe has 
many benefits. It would be capable of intercepting not only 
intercontinental ballistic missiles, but also intermediate-
range ballistic missiles launched out of the Middle East. The 
U.S. goal is to optimize defensive coverage of both Europe and 
the United States. They would provide a second layer of defense 
for the United States.
    With the protection afforded by these U.S. defensive 
capabilities in Europe, NATO member states could resist 
attempts by hostile states to intimidate or coerce the Alliance 
or its members from taking actions in the coalition. 
Strengthening our European allies and the NATO Alliance in turn 
enhances U.S. security. Such defenses would provide additional 
decision space for national leaders, including the President, 
for example, by allowing them to delay or defer resorting to 
offensive responses to an attack.
    Missile defenses provide another avenue for burden-sharing 
and strengthening relationships with important allies. When 
negotiations are successfully concluded, Poland and the Czech 
Republic would be providing a significant contribution to the 
collective security of the NATO Alliance by hosting the missile 
defense (MD) assets.
    I also want to comment briefly on benefits derived 
specifically from the basing mode that we have chosen to 
pursue, that is, ground-basing interceptors in silos. Many of 
our missile defense systems such as Aegis and PAC-3 are mobile 
or transportable. The advantage of mobility is flexibility. We 
can move assets into place as circumstances warrant. But there 
is also an important advantage to ground-based silos. That 
advantage is permanence. If we field long-range interceptors in 
silos in Europe, we will have the capability that is always 
there, before and during a crisis.
    Both our allies and potential adversaries will know with 
certainty that a missile defense capability is in place. These 
missile defense assets will then be able to both assure allies 
and deter and dissuade adversaries at all times once they are 
fielded.
    Providing Russia with transparency and predictability in 
their missile defense policy plans and programs is certainly in 
the interest of the United States. As General Obering 
indicated, we have been and will continue to keep Russia 
informed about the status of our programs and decisions. We 
will also continue to explore the possibility of additional 
confidence-building measures and seek opportunities to 
cooperate with Russia on missile defense in the future.
    I mentioned previously that a European interceptor site 
will provide long-range missile defense coverage to many NATO 
allies. Missile defense has been a topic of discussion and 
debate at NATO for quite some time, and the U.S. plan to begin 
fielding missile defense elements in Europe has served to focus 
and intensify these discussions.
    The Alliance has already taken several important steps 
demonstrating its support for missile defense, with its active 
layered theater ballistic missile defense, or ALT-BMD program, 
the Alliance has decided to develop the capability to defend 
its deployed forces from shorter-range missile attack. The 
program office established in 2005 is headed by a Frenchman and 
his deputy is an American.
    Recognizing that there is also a growing threat to NATO 
territory, the Alliance agreed at the 2002 Prague summit to 
initiate a NATO missile defense feasibility study to examine 
the defense of Alliance territory and population centers from 
ballistic missile attack. This study was completed and 
presented to the 2006 Riga summit. At Riga, the Alliance 
endorsed the study's conclusion that defense of Alliance 
territory and population centers is technically feasible.
    Although the Alliance has yet to make the collective 
decision to pursue a continental defense, a number of 
individual allies have demonstrated support for long-range 
missile defense. For example, Poland and the Czech Republic 
have expressed interest in hosting long-range missile defense 
assets. The United Kingdom has agreed to an upgrade of the 
Flyingdales early warning radar, and Denmark has agreed to a 
similar upgrade of the early warning radar at Thule, Greenland.
    In conclusion, we have made great progress in meeting the 
goals that the President set for us over four years ago, and we 
continue to press forward with the proposed deployment of U.S. 
missile defenses in Europe.
    Thank you for your attention and the opportunity to appear 
before you today. I look forward to your questions.
    [The prepared statement of Secretary Green can be found in 
the Appendix on page 94.]
    Ms. Tauscher. Thank you, Mr. Green.
    General Obering, senior Administration officials have said 
that because the threats we face today are unpredictable, the 
United States needs combat systems that can quickly adapt to 
new threats. With regard to missile defense, isn't there an 
inherent flexibility in having mobile missile defense platforms 
that can move to where the threats are?
    And furthermore, given the tight fiscal environment we will 
find ourselves in in the next coming years, doesn't it make 
sense to develop a missile defense system that we could use in 
multiple areas of the world? And to take it just a step 
further, don't mobile systems provide a better bang for the 
buck?
    General Obering. Madam Chairman, actually what we are 
developing and deploying and fielding takes heavily into 
account that mobile capability that you talked about. It is 
true that the flexibility of mobile forces is very attractive, 
and that is why we have invested a considerable amount of money 
in that in systems such as the THAAD, the Aegis, et cetera.
    Now, these systems, though, are to work in conjunction with 
typically fixed-based sensors and assets that we can take 
advantage of in a more expeditious manner, that typically you 
have more room for performance. For example, carrying around a 
ground-based mid-course interceptor on a ship would not be very 
practical. So the range and the reach that you get with those 
land-based, fixed-silo interceptors is very, very crucial to 
that overall integrated capability.
    We are in fact, as I said, investing in the more mobile 
systems. That is one of the reasons why we have invested as we 
have in our larger version of the Standard Missile-3 (SM-3) 
that we are codeveloping with Japan. That will have a long-
range intercept capability. It will have a much smaller 
defended-area footprint than a land-based interceptor, but it 
does provide that flexibility.
    But this works in combination, as Brian Green said. There 
is a persistence to land-based assets that you like to blend 
with the mobile-based assets, so that allows you to surge in 
certain areas where you may need to, but it also gives you a 
24/7 capability that often is more expensive when you use 
mobile assets. That is the case. We went through a cost-benefit 
analysis and we looked at the different alternatives for, for 
example, a European site for extension of coverage to allies 
and friends.
    The most effective would be the land-based interceptors 
that we talked about. They could be surged by the shorter-
range, and in fact shorter-range defenses could also be able to 
interlace with that to provide full coverage of all of our 
allies and friends in the European area. So we think that we 
are actually following that advice.
    Ms. Tauscher. What about mobile KEI?
    General Obering. Mobile KEI is an option that we are still 
pursuing. That is the option, as I mentioned, to the Airborne 
Laser. It is the option, as opposed to the primary program, 
because in the boost phase, the Airborne Laser is much more 
flexible. It can defeat all ranges of missiles. The KEI would 
be limited to just the lower range. So we are trying to 
maintain that option in our program.
    Ms. Tauscher. Thank you, General.
    Secretary Green, I listened to your testimony very clearly, 
and I don't dispute that there is support in Europe and 
certainly bilateral support among the allies that you mentioned 
who, coincidentally, are NATO, to working on a cooperative 
missile defense system. But my concern is that the 
Administration has made a decision to conduct the deployment 
through these bilateral channels, not through NATO.
    I would like to, if you could tell us why there is no NATO 
platform negotiation. We are just consulting with NATO, if I 
understand the terminology that is being used. Why aren't we 
looking for a NATO endorsement, so to speak, of deployment? If 
not, why not?
    Secretary Green. I guess I would make a couple of 
observations. First, NATO as an Alliance develops very few of 
its own capabilities. Most of its capabilities are actually 
developed by individual nations or smaller groupings within 
NATO that develop a particular capability, and then offer those 
capabilities in the context of the NATO Alliance. So the 
bilateral approach here is very common in NATO and I think a 
reasonable one in this circumstance.
    Second, I would note that NATO is a consensus organization, 
which means that we would have to try to achieve unanimity 
within the NATO context to get NATO to actually endorse a U.S. 
effort.
    I think it is fair to say that there is strong support in 
NATO and that that support is growing over time, but to achieve 
unanimity in any organization, much less one as diverse, as you 
know, with you having a prominent position at the NATO and 
Congress, getting unanimity in any organization like NATO is a 
very difficult challenge. In essence, what such an approach 
would do would allow any one nation within NATO to veto a U.S. 
initiative that we believe is very important to U.S. national 
security, in addition to European security. I think we would be 
very reluctant to go down that path.
    We certainly have a strong NATO foundation for this effort. 
We have consulted extensively with our NATO allies, both in the 
NATO context, the North Atlantic Council, and bilaterally with 
our NATO allies. Those consultations continue at a very high 
pace. We had General Obering over in NATO just last month. He 
is going over again next month. We have a Missile Defense 
Agency policy team over in Europe this week. Our under 
secretary is over in Europe this week talking about missile 
defense with our NATO allies. So this is, I think, a strong 
foundation and one on which we are building.
    Ms. Tauscher. I understand your point. Let me just tell you 
that my concern is that it is easy to pick off a NATO ally or 
two almost anytime you want to, and getting to 26 is very 
difficult, although we did do it successfully when they took 
over for the United States specifically in Afghanistan. But we 
do have also I think a very well developed commitment to 
interoperability. We do have a preeminence in this technology 
and in this science.
    So it would seem to me that I would feel a lot more 
comfortable if the Administration was negotiating directly with 
NATO. It is tough to get to 26, I understand that, but in the 
end it seems to me that that is really what we want to be 
doing. We want to have a NATO framework. We want to have 
clearly the opportunity to have interoperability. We don't want 
there to be a sense that we picked off some closer friends 
perhaps and got some easier, closer allies to agree, but then 
perhaps there is a competing system out there that could cause 
us some problems later on.
    So as one member and as the chairman, I would much prefer 
that we had a sense that this was a NATO framework that we were 
operating in, and not just a bilateral.
    I am happy to yield time, as much as you would like to 
consume, to the Ranking Member, Mr. Everett.
    Mr. Everett. Thank you very much, Madam Chairman.
    Ms. Tauscher. You are welcome.
    Mr. Everett. So much, and so little time.
    General Obering, let's talk a little bit, and perhaps some 
background to bring up ABL. Some of our members may have 
followed it from the very beginning. Having visited, I 
understand it is a very complicated piece of equipment. Would 
you describe where we started with ABL?
    And with the distinguished chairman of the Budget Committee 
here, I am not going to pretend that we are not over-costs on 
the ABL. We certainly do not have the aircraft for the amount 
of money that was originally projected.
    However, I would point out the ABL is not alone in that 
situation. Just about everything that we have done in the 
procurement and development has gone over budget and over time. 
But if you will start and just very briefly describe what the 
original concept of ABL was, and where we are at this point, 
including the latest test we had last week.
    General Obering. Yes, sir. First of all, what I will do is 
I will roll back about three or four years ago. At that point, 
the Airborne Laser was being approached in a classic 
acquisition program fashion, sir. There were requirements that 
they were trying to strive to meet. They had to think through 
supportability, maintainability--all of what we call the 
entities associated with a major acquisition program.
    There was only one problem with that. They had not balanced 
the resources to focus effectively on what was the critical 
contribution that they make to a missile defense system. That 
critical contribution is to be able to use the power of light, 
directed energy, at the speed of light, to destroy ballistic 
missiles very, very rapidly. And so they were out of balance in 
terms of how they had focused on that task.
    What my predecessor and I did, General Kadish, is we 
restructured that program to use the knowledge-based, 
knowledge-point approach to refocus the program on being able 
to accomplish its major contribution to the system. So we laid 
out, along with the program manager, the phases that we wanted 
to see from that program.
    The first one was that we consider terminating the program 
unless they could generate, first, light from that laser, from 
the high-energy laser. It was in a 747 mockup on the ground 
that had all the constraints of the 747, and we told them that 
they had to do that. They achieved that milestone in November 
of 2004. Since then, they lased over 70 times with that laser.
    Another key knowledge point was to be able to use an 
optical fire control train within the aircraft to be able to 
control the beam while it is being fired. So we set up a series 
of flight tests with an optical bench on the aircraft. It had 
its first flight back in December of 2004 and achieved that 
knowledge point.
    Now, since that time, if I can fast forward a little bit, 
they have been making tremendous and very steady progress. It 
has been tough, but they have been making great progress. The 
next major knowledge points that they are to achieve is there 
are actually three lasers on board the aircraft.
    There is a tracking laser that is used to provide precise 
tracking information into that fire control system; there is an 
atmospheric compensation laser that goes out and measures the 
distortion in the atmosphere and feeds that information back so 
that the mirrors on board the aircraft can deform, so that when 
the high-energy beam hits, it leaves the aircraft deformed and 
uses the atmosphere as eyeglasses lenses, so to speak, to 
refocus the beam on the target.
    We have now installed the tracking laser and the 
atmospheric compensation laser on the aircraft. It has been 
back in flight now for the last several weeks. It is achieving 
the knowledge points in terms of being able to track that 
tracking laser, and we anticipate here in the next two weeks it 
will be able to fire the atmospheric compensation laser out the 
nose.
    So we did use the tracking laser this past week to track a 
target 75 kilometers away and we are now assessing that and 
moving toward the knowledge points that we hope to finish 
achieving this summer. So that program has come a tremendously 
long way. It offers promise for the future in terms of directed 
energy and being able to use directed energy as a weapon on a 
large scale.
    So a lot of lessons learned that we are learning from this 
program can be applied to many other directed energy programs 
should the Department choose to go that way for the future. We 
are not out of the woods yet. We still have to reach the 
knowledge points that I talked about this summer.
    We will then take the program, the aircraft back down after 
the flight test. We will open it up and we will put the high-
energy laser on the aircraft and get back into the air next 
year, and look for a shoot-down of a boosting missile in 2009.
    Mr. Everett. There are benefits to ABL that we can't go 
into in this setting. I would appreciate the opportunity, and 
perhaps the chairman, at some point in time I might meet with 
you all to talk about that.
    In staging the ABL, I assume that you could take three 
aircraft and operate 24/7 in those three aircraft. I understand 
the 747 has long legs on it, but is there a staging problem to 
be able to actually operate 24/7 with three aircraft?
    General Obering. No, sir. In fact it would operate not 
unlike what we do now with the aerial controlled aircraft, the 
AWACS, or with the Joint Stars aircraft. That concept of 
operations (CONOPS) is fairly well defined. Actually, the 
program office has been working with air combat command to go 
through and look at those CONOPS and they have been very well 
engaged on that. So this idea of full deployment when you have 
indications and warnings to be able to set up an orbit, all of 
that has been thought through.
    As you say, this is not something that you would have 
flying 24 hours, 7 days a week. It goes back, Madam Chairman, 
to your comment about flexibility and mobility assets. So we 
don't expect 24/7 coverage from those types of assets, but we 
do expect that we can use them in indications and warnings, and 
scenarios at surge, and that is exactly the way that we would 
envision ABL being used.
    Mr. Everett. And KEI, could you bring us up on KEI?
    General Obering. KEI was the product of a Defense Science 
Board recommendation to the Missile Defense Agency back in 2002 
that because the Airborne Laser was very technically 
challenging, that there was needed an alternative to it. So 
they recommended a Kinetic Energy Interceptor program. That is 
what we have been embarked on for the past several years.
    It has also made great progress. It achieved its knowledge 
points. Of course the contribution it gives to the ballistic 
missile defense system is not directed energy, but very rapid 
acceleration. So if we can demonstrate a very rapidly 
accelerating booster flight, then that is the technical hurdle 
that we are after with that program. I am happy to say that 
they have had successful fires of the first stage and the 
second stage of that interceptor.
    We are going to continue that fire program this year, and 
go for the first flight of that booster in the fourth quarter 
of 2008. So it offers an alternative should the Airborne Laser 
not prove out technically or prove out to be too operationally 
unsuitable or unaffordable in the long run. That is also part 
of our knowledge point in designs. So we are still maintaining 
that option, as I mentioned earlier, for the KEI program.
    Mr. Everett. Briefly, General Obering, how much does MDA 
invest in testing? What percentage of the MDA's overall budget 
is for testing?
    General Obering. There is about 20 percent. It is about $2 
billion a year in 2008 budget. It is a significant portion 
because obviously these are very complex systems. They span 
many time zones. We have to use range assets that can operate 
in the atmosphere as well as in space over long ranges. So 
these are very expensive tests, but we are investing heavily in 
them.
    Mr. Everett. General Campbell, how does the budget request 
reflect STRATCOM's prioritized capabilities list?
    General Campbell. Congressman Everett, based on what we 
have given MDA in terms of priorities, right now he is meeting 
those key capabilities that we have asked him to field in the 
upgrades to the existing system. So as best we can tell right 
now, it seems appropriately balanced between development and 
sustaining those elements that have already been fielded.
    Mr. Everett. Thank you.
    Madam Chairman, I am going to wait for a second round. 
Thank you.
    Ms. Tauscher. Thank you, sir.
    I will yield five minutes to the gentleman from Washington, 
Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chairman.
    First off, General Obering, good to see you again.
    This first question is about space tracking. To the extent 
you can answer the question, there are $331 million or so in 
the budget for space tracking for the first two demonstrations. 
There is also money in for follow-on satellites, presumably for 
a 2016 or so launch.
    The question I have, it is an obvious one. We have not yet 
launched the first two, the experimentals. Are you fairly 
confident that those are going to work as you would hope so 
that you ought to be asking for money for the next two, for 
2016? Can you talk a little bit about your relative confidence 
in that? It seems we are getting ahead of ourselves on the 
second two, if you don't know about the first two yet.
    General Obering. Actually, we have the two demonstration 
satellites that you talked about that are going to go up later 
this year. Now, we believe that we will learn a lot from that. 
The purpose, by the way, for the rest of the committee, the 
purpose of these satellites is can we provide a precise-enough 
track from space to be able to engage an enemy missile on that 
track alone.
    Of course, that goes back to Madam Chairman's comment about 
flexibility and mobility. That gives us the ability to have 
persistence, in this case, global protection in tracking. That 
is what we hope to learn from. Now, with any system, there is 
infrastructure to support those demonstration satellites, so we 
have to operate those.
    We are going to experiment with those and we have to have 
the command and control capabilities. All of that is included 
in that budget request. We also want to begin to take lessons 
learned from this as we go along, to be able to feed that into 
the follow-on system that you talked about.
    Unfortunately, spacecraft in my mind still take too long to 
develop, but that is the cycle that we are in. So even though 
it sounds like a long time from now to 2016, it is not. In 
space terms, that is virtually around the corner. So we are 
going to be using a lot of the folks that will be gaining that 
knowledge, and being able to incorporate that into some of our 
system engineering planning and early architecture work for 
that system.
    Mr. Larsen. Thanks for that answer. I will probably have 
some follow-up.
    I want to get to General Campbell with some questions about 
Medium Extended Air Defense System (MEADS), if I may.
    General, good to see you again. It was a pleasure to visit 
you down in Alabama.
    With regards to MEADS, I just had a few questions. After I 
got back from the trip to Huntsville, some questions came to 
mind, and I delivered them for the record, and got some answers 
back. I had some follow-ups on that. One of the questions I had 
was of the management challenges and management structure to 
the MEADS program and what that has meant for its 
implementation.
    The answer that I got back was that now the German and 
Italian counterparts are meeting next month to discuss the 
MEADS design and development program process and some of the 
issues related to that. It struck my mind, is that an 
indication that there are changes that do need to take place? 
Or is this just a checking-in with each other to make sure 
things are moving forward? What is the progress of this 
relationship with the Germans and Italians in implementing 
MEADS?
    General Campbell. Sir, I am not the developer of the 
program, but from what I understand, if we look at schedule and 
budget, I have not observed any outstanding problems. The 
measure of success for us, from the warfighter's perspective, 
will they equip us as they promised?
    Right now, the first unit equipped stands for fiscal year 
2015. I am told that they are still going to meet that 
timeline. So if there are internal management problems, at 
least at the present time it has not affected the delivery 
dates of first unit equipped.
    Mr. Larsen. Okay. I will just ask this question for the 
record, if you have an answer for this one as well we will go 
with that. Another question I had about any specific 
recommendations, and a response came back that NATO MEADS 
management agency intends to increase its oversight and 
management activities of the MEADS contractor team in the 
coming months to ensure the upcoming P.R. scheduled for third 
quarter stays on schedule.
    I am all for oversight. It indicates to me that it looks 
like there is a need for increased oversight. Otherwise, the 
recommendation probably wouldn't have come up. Are you aware of 
why we need to increase management and oversight within the 
U.S. contractor team?
    General Campbell. Sir, I am not aware, so we will take that 
for the record.
    Mr. Larsen. I appreciate that.
    Dr. McQueary, as the test and evaluation person here, are 
you looking at MEADS or are you looking at the MDA side of the 
house?
    Dr. McQueary. We are looking at MDA, but I would also 
hasten to say we try to stay abreast of what is going on with 
the components that are currently in MDA, or will be eventually 
included in MDA. My personal knowledge of MEADS is not 
sufficient that I could give you any further insight, but I 
would be happy to look further into it and provide information 
if that would be helpful.
    Mr. Larsen. Yes. I will get back to you on that. Thank you 
very much.
    Thank you, Madam Chairman.
    Ms. Tauscher. Mr. Larsen, would you like a question on the 
record for Dr. McQueary on MEADS?
    Mr. Larsen. Yes, I would.
    Ms. Tauscher. Excellent. Thank you.
    At this time, I am very happy to yield five minutes to the 
gentleman from Arizona, Mr. Franks.
    Mr. Franks. Thank you, Madam Chair. Thank you very much.
    And thank you, gentlemen, for all that you do for this 
country.
    General Obering, I have not had a chance to publicly 
congratulate you on some of the successful tests that you had 
with the ABL here recently. I think that is a milestone and a 
great credit to all the work that you do.
    Having said that, the distinguished ranking member has 
covered that to a large degree, but I think that this is a 
very, very important program in that it has so many other 
applications for the future, even beyond missile defense.
    Related to space-based defenses, we last seriously looked 
at that around 20 years ago. Since then, a lot of things have 
changed. The Soviet Union and the United States were really the 
only main players in space at that time, but that environment 
has changed. The threats have changed. The capabilities have 
changed, and just the use of space has changed since then. I 
believe that it is very appropriate for us to begin to refocus 
on those concepts in the environment that we are in today.
    General Obering. Sir, as you may know, we have included a 
very small amount of money, about $10 million in our 2008 
request out of the $8.9 billion request. But we think that it 
is prudent to begin to lay the foundation for experimentation 
and to answer some questions that obviously need to be raised 
if the United States opts to pursue that direction.
    The policy foundation for this was laid out in the national 
space policy that was signed out last year. What we are trying 
to do from an MDA perspective and a developer's perspective is 
to try to inform the debate that we know should occur and will 
occur regarding those capabilities. As you say, much has 
changed, but we also need to understand what is left to be 
addressed and what are the questions surrounding that.
    So this very small amount of money is to allow us to begin 
interaction with industry, to begin to exchange concepts, to 
understand where we are with the maturation of components that 
could be used in this regard. The vast majority of what we 
would need to do in this regard, in this experimentation, does 
not even involve launching anything into space.
    We can answer that here on the ground with models and 
simulations, that type of thing. That is the kind of activity 
that we think would be pretty well covered in a budget request 
to make sure that we fully inform the Hill of what we think is 
important.
    Again, it goes back to the flexibility that Madam Chairman 
talked about, that gives you flexibility for future 
uncertainties because we don't know what threats we may face in 
15 or 20 years. As I stated earlier, unfortunately in space 
terms, that is not a very long time. So being able to inform us 
to date is one of the reasons why we included that money in our 
budget request.
    Mr. Franks. Thank you, General.
    Just to be very candid with you, the $10 million is not a 
large amount given the size of the Department of Defense 
spending. Given the nature of what you are studying, it seems 
very prudent to move forward with that. From our perspective, 
it seems that that amount should be increased. I would like to 
see us have the capability not 20 years from now, but in the 
near future when we are seeing some of these emerging threats 
occur, to be able to have space-based defensive interceptors.
    With that said, there is a lot of discussion, as you know, 
about even cutting missile defense so that we can focus more on 
Iraq and Afghanistan, which are certainly on record as 
believing that we absolutely must prevail in those theaters. 
But having said that, I think it is important not to leave out 
the other potential threats that are ahead of us.
    I wonder if you could explain, from your own perspective, 
what threats you think are out there related perhaps to China 
or Iran, that might be critical for us to have some progress 
with the space test bed and the space-based defense in general.
    General Obering. First of all, we know a couple of things. 
We know we are going to be surprised. We know that. We have 
been surprised in the past and we believe that we are going to 
be surprised in the future. As an example, just a month or so 
before the North Koreans launched the Taepo Dong 1 in 1998, the 
experts were predicting that that wouldn't occur for five to 
eight years. So that was a surprise that really caught a lot of 
folks off-hand.
    We don't know what is going to happen with respect to the 
maturation of the rogue nation threats--North Korea, Iran, and 
potentially others. We also don't know necessarily where the 
access of attack may come from 15 or 20 years from now, and 
being able to try to understand and guess that, and then get 
defenses in place for us enough at a terrestrial base.
    We are seeing right now some of the engagement with our 
allies in terms of locations or sites for missile defense 
purposes on territory. We know that that engagement takes a 
while to be able to accomplish. Having the flexibility to be 
able to move to space where you do have that freedom of action 
is something that I think could be generated in order to 
address those future uncertainties.
    I can't predict what those future threats may be. If I 
could, I could save the American people an awful lot of money, 
but I can't do that. So what we think is that it is prudent 
that you keep your options open and not foreclose on those 
options prematurely or not even embark at all. So that is the 
rationale behind our thinking of keeping this balance.
    By the way, that applies to not just the space test bed, 
but also to anything we are doing with respect to future 
capabilities. If we had singularly focused on just near-term 
capabilities back in the mid-1990's, there would not have been 
a system to turn on last summer when the North Koreans launched 
those missiles. There would have been no activation of any 
operational Ground-Based Mid-Course Defense Program because it 
probably would not have been in place.
    And so, when we fielded the dozens and dozens of phone 
calls that we received from the media and from other 
organizations about what can we do to protect the United 
States, it was a good thing we had an answer ready--yes, we do 
have a system that could be activated.
    Mr. Franks. Thank you again.
    Thank you, Madam Chair.
    Ms. Tauscher. Mr. Franks, you are welcome.
    Dr. McQueary, over the past several years, ODT&E has played 
an increasingly larger role in the missile defense testing 
system. That said, I understand that ODT&E, and you actually 
mentioned it in your testimony, your existing authorities with 
regard to the missile defense testing program are primarily 
advisory. And you state that to be correct.
    For the record, could you state what ODT&E's specific 
authorities are with regard to the missile defense testing 
program? For example, if ODT&E believes that a certain missile 
defense element is not working properly, do you currently have 
the authority to order further evaluation of that element?
    And could you just give us a compare-and-contrast of what 
authorities you currently possess with other major defense 
programs, versus what your authorities are for MDA?
    Dr. McQueary. Thank you. If I don't get all of that, please 
come back.
    Specifically, the authorities were given to us by the 
Congress in the fiscal year 2002 National Defense Appropriation 
Act (NDAA), which was to provide an overall assessment. So that 
is the role, the designated responsibility that we have. We 
were also given the responsibility to look at operationally 
realistic tests in the fiscal year 2005 NDAA. And then finally, 
we were asked to do the block assessment in the fiscal year 
2006 NDAA.
    Ms. Tauscher. Is this kind of a transactional thing? It is 
almost as if you don't have broad powers. You have almost a 
transactional per system, per designation of a certain block to 
do your ODT&E work.
    Dr. McQueary. That is the nature of the language.
    However, let me say this, and I think this is a really 
important point. In the time period that I personally have been 
in the job, for eight months--and so I am sort of the youngest 
one here in terms of time on the job, not in terms of calendar 
age--but my interaction with General Obering and his staff has 
been nothing short of outstanding in terms of the relationship, 
the willingness to listen to us, the willingness to work with 
us in order to be able to make sure that we can get the 
information necessary to provide you, and the Secretary of 
Defense, the necessary assessments that we can, which really 
focuses on the effectiveness of the system and suitability of 
the system. I touched upon those things in my comments.
    So from the standpoint of our ability to do the job, I 
don't have any shortcomings in order to be able to do that. 
With that being said, however, I would say that is highly 
dependent upon the nature and characteristics of the people who 
are in the leadership roles, because it did not work quite as 
well as that under previous leadership, as you may know and 
others certainly know.
    Ms. Tauscher. We are all happy to have General Obering 
here.
    Dr. McQueary. We are all happy to have General Obering here 
for a lot of good reasons. He has been very forthcoming in 
every regard. So from that standpoint, I don't feel that there 
is any shortcomings in our ability to provide you the 
assessments, and I certainly have not felt any pressures coming 
from anyone to provide other than forthright, candid 
assessments for the system.
    Ms. Tauscher. Could you just briefly compare-and-contrast 
the scope of your authority in other kinds of major defense 
programs versus your MDA?
    Dr. McQueary. Particularly with the AK-1 programs, and then 
there are programs that Congress would designate as wishing to 
have OT&E have the oversight responsibility on. The things that 
we would do there is provide the final reports on whether a 
system is operationally effective, and suitable.
    We would participate during the decision process as to 
whether the initial production done on the system. We would 
provide reports. We don't actually make the decision, but we 
provide information. And then finally, a major responsibility 
that we have for the larger programs is providing the beyond a 
low-rate initial production report, which is the basis for the 
authorization to go forward to full-scale production.
    We don't have those authorizations here, but quite frankly, 
MDA is a different kind of a program in the sense that it is 
made up of systems that are relatively mature; systems that are 
new. So I believe that under the circumstances that we have, 
that this is a great opportunity for the country to explore 
alternative ways of acquisition reform as long as this 
continues to work.
    If I may, one other point and I will stop. I think a high 
mark in looking back over the history is when they had the two 
Fairers and MDA had the two Fairers. What the program did then 
was stop, take a look at what needed to be done, brought in 
outside advisers, didn't go forward until there was a clear 
understanding, and that was reported to the Congress and to the 
Secretary of Defense as to what needed to be done.
    I think that is a hallmark of this program, in being able 
to stop. Because if you have problems, you don't want to just 
keep going forward. You want to stop and find out because it is 
important to look at the data and react to that.
    Ms. Tauscher. Thank you, Dr. McQueary.
    Mr. Everett, for a second round of questions?
    Mr. Everett. Thank you, Madam Chairman.
    In regards to General Obering, who is a native of 
Birmingham, Alabama----
    Ms. Tauscher. A favorite son. [Laughter.]
    Mr. Everett [continuing]. And General Campbell, being in 
Huntsville permanently in June, and my great friend Bud Cramer, 
who represents Huntsville, and then there is staff in L.A., 
which is Lower Alabama----
    [Laughter.]
    We are going to fix these missile defense problems. 
[Laughter.]
    General Obering, you and I have had this discussion before, 
but will the decisions on ABL and KEI be delayed until ABL's 
test shot is completed? I believe that test is in 2009. If it 
is delayed longer than that will you do away with one of the 
programs?
    General Obering. If the Airborne Laser is meeting its 
knowledge points and is doing so in a fashion that we believe 
is conducive to continuing the program, as I said, and that 
means affordability and everything else, then we would not 
pursue the KEI as a boost-phase defense program.
    On the other hand, if the Airborne Laser does not meet the 
knowledge points or we believe has a severe schedule risk in 
doing so, then we would have to exercise the KEI option as the 
boost-phase defense. So we will not proceed with both of those 
programs beyond the boost phase for a boost-phase capability. 
There may be some aspects of the KEI program that are very 
attractive in terms of that high-acceleration booster that may 
be incorporated downstream in our silo-based capabilities, but 
for a boost-phased defense program, we would only carry one of 
those forward.
    Mr. Everett. Have we redefined the mission of KEI?
    General Obering. We have not redefined the mission in terms 
of the contribution of that to the system otherwise. It is 
still looking at being the alternative for Airborne Laser if it 
does not succeed as a boost-phase capability. But what is 
interesting, and it came after the fact, frankly, is that with 
a very high acceleration booster that could be made available 
in the mid-course role as well, it becomes--think of it more as 
a utility player, having a pitcher for example, that is a very, 
very good at pitching, but also can play in other positions in 
the outfield.
    So that is something that would not be the same cost. 
Obviously, it would be a much reduced program to be able to do 
that for the future.
    Mr. Everett. Dr. McQueary, I believe General Obering said 
he was paying about 20 percent of his budget on testing.
    Was that correct, General Obering?
    General Obering. Yes, sir.
    Mr. Everett. Is that enough money? Is that enough resources 
to do the testing we need?
    Dr. McQueary. I am not in a position to judge the amount of 
the money. I am in a much better position to judge the test 
program that has been put together, and I assume General 
Obering and his folks have put together a very convincing story 
as to how much it costs to do that.
    I do believe the test program is a very viable test 
program. I have looked at the program, as I indicated, after 
the restructuring took place. As I indicated in my remarks, the 
emphasis is on continually increasing the space in which we are 
working, and I think that is extremely important.
    I do believe that the manner in which they put the program 
together to give time between tests to thoroughly analyze the 
information that is gathered from a test, which can be measured 
in probably billions of digits if you wish to. It is very 
important to do that. It is important to know what was wrong 
from the previous test before going on to the next one.
    So I think they have put together a very careful and 
principled test program. As long as it continues to be as 
successful as it has, I think the country can look forward to a 
very successful program.
    Mr. Everett. Sounds like an A-plus to me. [Laughter.]
    General Obering. Could I make a comment, if that is 
possible, please?
    Mr. Everett. Absolutely.
    General Obering. I want to comment on what Dr. McQueary 
said about engagement and tie it back to something you said, 
Madam Chairman.
    There is this perspective out there that in the manner in 
which MDA does business, even structurally, forgetting 
personalities, that we don't somehow pay enough attention to 
OT&E or that they don't have enough authority, so to speak, 
within our context.
    I would say almost the opposite is the case, because what 
happened is a lot of what happened in the standard acquisition 
processes. If you stop and think about the timeframes that many 
of those were grown in, it is where we had large-scale 
developments, then we had long production runs. Once that 
program was out the door in that production run, it was gone 
and you were spending a lot of money on those production rates.
    So the whole construct is that the testers had to be the 
final step of approval before that occurred, and therefore 
incurred a lot of expense on the part of the government. We are 
actually engaging them on a much more regular basis and a much 
longer continuous basis. So this idea of spiral development, 
one of the aspects of that is spiral testing. So there is not a 
point at which we say, off you go. We are continually coming 
back to them and working with them as we go through the 
maturation of the process.
    So that is why it is different. I can see how people get 
the impression that they do, but it really is a strong 
engagement that we have with them, and they are fully 
integrated into all of our processes.
    Mr. Everett. Thank you.
    Madam Chairman, I may have some questions for the record, 
but I am going to rest for the time being.
    Ms. Tauscher. Certainly. Yes, sir.
    Before I yield to Mr. Larsen, I think, General Obering, you 
bring up a very important point because I think that in the 
paradigm change to spiral development, what is obvious is that 
you have a very good colleague here in Dr. McQueary. I think 
that there is certainly a sense that I have that there was a 
lingering question as to the kinds of operational tests and 
ground testing and flight testing and other things in this new 
paradigm of spiral development.
    When you say ``spiral testing,'' my head starts spinning a 
little bit more than I think it is meant to, but I think that 
what is important here is that you have a 20 percent budget of 
a very large budget, that is including testing. What is tough 
and difficult for some people to understand and is a challenge 
that I think you are going to have to repeatedly explain is 
that that is a very big number. It is a very big number for a 
deployed system.
    The truth is that on the one hand, I think that you are 
trying to get credit, as you should, for having a lot of money 
for testing during a time when you have had criticism for not 
testing enough. The truth is some people will look at you and 
say, well, what are you testing a deployed system for? That is 
a lot of money to be spending on a system you have deployed.
    So I think the challenge you have, and this is true for 
everything that is new, is that when you break a paradigm and 
you do something new, you constantly have to bring people back 
to a sense that things have to be looked at through the 
paradigm differently, and that you have challenges to do that.
    One of the reasons why I think this has been a very good 
hearing to have all of you here, and we appreciate that, is 
that I think that we are fleshing out some of these things, and 
I think we are getting a better sense for the fact that you 
can't use old modeling contexts for this. Once you do, you find 
yourself in terrain that causes a lack of understanding and 
maybe undue criticism.
    I am happy to yield five minutes to the gentleman from 
Washington, Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chairwoman. I know you weren't 
saying this. I am perfectly comfortable with your testing. 
[Laughter.]
    When I got on this subcommittee a couple of years ago, it 
seemed like we were moving far ahead of what we were able to 
do. General Obering and staff began to break down their testing 
regimen a little better into a walk, then run, process. I think 
the result has been a lot more confidence.
    I have a question, and this may be more of a future 
question, but it has to do with the concept of operations, and 
specifically ABL, but it can even be applied to other assets 
within the MDA realm. Assuming that at some point in the 
future, lasing works just as we want it to work. And then we 
have it on the aircraft. Who owns that asset? Does that become 
an MDA asset? Or does the Air Force get that asset?
    In the context of that question, I want to ask you about, 
getting back to Chairwoman Tauscher's first question about 
addressing mobility of assets in Europe, why choose a ground-
based system versus land, mobile or even sea-mobile assets for 
protection. Who owns these assets? Who makes the decision on 
their deployment? Because we are still sort of in that testing 
stage, but we are in an operational phase as well. Who says we 
need three aircraft to go up in the air? Who says we need to 
send three Aegis destroyers to place X to take care of this?
    General Obering. Okay. I will try to break that down, and 
then General Campbell may want to add something here.
    First of all, when we get a component or element of the 
system to a level of maturation that can be operated and 
supported by a service, typically a lead service is designated 
and we transfer operations and support responsibilities to that 
lead service. And then that asset is actually owned in that 
parlance, for operational purposes, about deciding if it is 
mobile, where it goes, that is usually owned by the combatant 
commander who provides that operational control.
    What we do, again, is develop them to a state of maturity, 
and then transition those. Lead service designation, for 
example, has been made for our forward-deployed radar, for our 
upgraded early warning radars. We anticipate that it will be 
made soon for the massive sea-based X-Band Radar. We are 
getting indications that the Navy will do that. So that is the 
idea of transitioning and transfer of operations and support.
    Now, from an ownership perspective in terms of ongoing 
sustaining engineering, ongoing development of the asset, we 
perceive MDA to still be in that role and that responsibility. 
There is a key reason for that. As I said earlier, we are 
building an integrated, layered system. We want to make sure 
that that integration and that layering continues into the 
future as we continue to upgrade and modify the components. And 
so we think it is important that MDA stays in that role as the 
sustaining engineer, so to speak, and the configuration manager 
of that asset.
    Mr. Larsen. Let me ask this: Does that mean that we will be 
digging through the Navy budget, and the Air Force budget, and 
the Army budget as the operational control of these assets 
moves to either the services or to combatant commands?
    General Obering. It means that they will probably execute 
that into their O&M lines.
    Mr. Larsen. O&M?
    General Obering. Yes, sir. That is where it would be. It 
would not be in any RDT&E line or anything like that.
    Mr. Larsen. Can you address your thoughts with regard to 
Europe and missile-based, land-based, sea-based?
    General Obering. Yes, sir. I will. The idea in the mission 
to extend, and it is important to remember we have a 
significant number of deployed forces in the European theater, 
and Americans frankly are living there as well. So in addition 
to providing protection for our deployed forces and our allies 
and our friends, a third site in the European area would also 
provide protection for the U.S. homeland as well. It provides 
redundancy over a majority of the homeland. So that is the 
``why'' we think this is important.
    The ``when'' is urgent because we can't judge the Iranian 
threat, but we know that it is emerging and most of the 
``experts'' believe that it will be sometime before 2015 that 
this will occur. I don't know how accurate that is, but I do 
know that we have to use some criteria.
    But when we went through the analysis that says, what 
should we use for this protection, we looked at land-based. We 
looked at mobile sea-based and mobile land-based assets. The 
analysis shows that for the window of vulnerability, so to 
speak, for the urgency of this, for the coverage that you get, 
and for the cost-effectiveness, the land-based silos are the 
right way to go to be able to provide that coverage.
    As I mentioned earlier, that doesn't mean that later they 
can't be augmented by these more mobile assets, but we are a 
long way from having that capability to be able to cover. In 
addition, just from a numbers game, it doesn't pan out because 
to provide the same coverage that you would need to provide----
    Mr. Larsen. That number is in terms of missiles or in terms 
of budget?
    General Obering. In terms of actual interceptors. For 
example, to provide the same coverage that you get with these 
land-based silo missiles, you would need a number of ships 
around the clock 24/7 to provide that persistent coverage, and 
then you need a number of ships just like it is typically three 
to one of Airborne Laser to one orbit.
    It is the same type of thing for a ship. So now you are 
tying up anywhere from 12 to 15 ships, depending on the 
locations, to do this mission. It is not very cost- or 
operationally effective. The shorter-range coverage that would 
be provided by, for example, a modified and much improved THAAD 
missile, the definitive footprint is much, much smaller, and 
there are problems there with respect to some of where it does 
the intercepts for the long-range. I can't go into any more 
detail than that.
    Suffice it to say, we looked at all those options when we 
went through this analysis, and the location in terms of the 
Czech Republic and Poland, as well as the methodology by which 
we are doing this, was optimized.
    Mr. Larsen. Yes.
    General Campbell. Congressman Larsen, may I add? On the 
concept of operations, the Missile Defense Agency will develop 
a concept usually at the platform level, how that particular 
platform works. As we see the capability develop and we 
understand the operational parameters, then we work to 
integrate it into an overarching concept that spans across the 
combatant commanders.
    As to specific ownership, that may be situationally 
dependent. We don't get hung-up on who owns it. We are going to 
move the asset to where it needs to be employed, and then 
command and control it in the most effective way. So it could 
be any combatant commander who ends up controlling that global 
asset.
    Ms. Tauscher. Thank you, Mr. Larsen.
    Mr. Franks for five minutes.
    Mr. Franks. Thank you, Madam Chair.
    Madam Chair, I don't usually skip over general officers 
here in asking questions, but when there is that second round, 
sometimes someone gets the chance, and Mr. Green this is mine 
here.
    Mr. Green, I am going, if it is all right, to develop Mr. 
Larsen's question just a little bit because I think it is of 
critical import. General Craddock recently provided our 
subcommittee with written testimony to the effect that 
legislative support for the European interceptor site, and let 
me just quote him, ``would yield a significant increase in the 
capabilities of combatant commands to effect change and achieve 
goals throughout the area of responsibility.''
    Now, I have to take some issue, very respectfully, with the 
Chair related to some of our discussions with allies there, 
whether it be the Czech Republic or Poland, in placing a third 
site or a European site there. It seems to me that the primary 
players or decisionmakers should be those allies and what is 
best for this country. That should transcend any considerations 
that NATO might have.
    I certainly don't want to put you in a position of dealing 
with a policy question like that, but do you agree with General 
Craddock's assessment of the absolute importance of funding a 
European interceptor site in enhancing the defense of the U.S. 
homeland in particular?
    Secretary Green. I certainly agree that this system will 
play a very important role in enhancing the defense of the 
United States and enhancing the defense of our European allies 
and NATO. I think the two are inextricably linked. As you 
improve the defense of our NATO allies and our European allies, 
you enhance the security of the United States and vice versa. 
So I don't think it is possible to tease them apart.
    Certainly, the principal reason that we deploy missile 
defenses is that it provides warfighter benefit. The fact that 
General Craddock is a strong supporter of this I think speaks 
volumes for the importance of the European site.
    Mr. Franks. Let me just ask you, what do you consider to be 
your greatest obstacle to achieving progress in the area of the 
European interceptor site?
    Secretary Green. Well, first of all, I think we are 
confident of success. So in that sense, I would hesitate to 
identify any single obstacle as the principal obstacle. 
Obviously, there are a series of negotiations through which we 
have to proceed and we never take those for granted. We are 
confident of success, but we have to sit down with our Czech 
allies and our Polish allies and work through the issues that 
arise there.
    Again, we are very confident of success there. Obviously, 
we have to persuade Congress that this is a good idea, and that 
we have our justification properly aligned, and that Congress 
understands the value of this. Again, we are going to pursue 
this in the NATO context. We continue to do that and we will do 
that very vigorously.
    So I wouldn't identify any one obstacle as the main 
obstacle. There are always discussions to be had, and issues to 
be worked through, but again, we are very confident of that.
    Mr. Franks. What you said very diplomatically is if 
anything goes wrong, Congress will be the culprit. Right? 
[Laughter.]
    Secretary Green. I simply noted that Congress is a key 
player in this. [Laughter.]
    Mr. Franks. I thank you, Mr. Green.
    General Campbell, I guess I would ask you one of these 
broad questions. Sometimes it is impossible for those of us 
even on a panel like this to have anywhere near the technical 
and situational understanding that all of you have. There is no 
question that when you put on the uniform like that that your 
primary consideration has to be human freedom and what is best 
for this country.
    Given that, given that your motivations are there, your 
knowledge base is very important. So let me just ask you a 
pretty straightforward, simple, easy, almost impossible to 
answer question. If we could solve any one problem for missile 
defense capability for this country in general, what do you 
think is the most important challenge that we face to develop a 
multi-layered missile defense capability for this country?
    General Campbell. I think you actually gave me the answer 
in your question, and that is you want to make this a complex 
problem for our enemies. The way we do that is we deploy and 
employ a multi-layered system. That is as simple as I can say 
it. I think that complicates their problem.
    The other side of this is in terms of expanding it to 
allies and friends. I think the broader the missile defense, 
you may then enable those countries to invest in other 
capabilities where we are lacking. It may be chemical defense 
or chemical detection. So with us expanding the system, we 
probably open the door for other allies and friends to help us 
and help themselves.
    Mr. Franks. Thank you very much. After this, the chair may 
never let me ask another question, so I will thank all of you.
    Ms. Tauscher. Of course I will let you ask a question, Mr. 
Franks, but I do have a question for you.
    General Craddock's comments, were they done in his capacity 
as the regional combatant commander for Europe? Or as the 
Supreme Allied Commander Europe (SACEUR)? I would assume it was 
European Command (EUCOM) commander.
    Mr. Franks. If you are asking me, I haven't the slightest 
idea. [Laughter.]
    Ms. Tauscher. Well, when you have somebody that is dual-
hatted as General Craddock is, my assumption is that he was 
speaking as the EUCOM commander. The truth is that he is dual-
hatted and he has another job, which is the Supreme Allied 
Commander of Europe, and that is the capacity that I want him 
to begin to negotiate for everyone, for a NATO-fundamental 
treatment for missile defense.
    You can have as much time as you may consume in the next 
hearing, Mr. Franks.
    Mr. Franks. Thank you, ma'am. [Laughter.]
    Ms. Tauscher. That was not a trick.
    Mr. Franks. I was more concerned with the veracity of his 
statement than the hat he was wearing.
    Ms. Tauscher. Lieutenant General Campbell, today we have 
talked a little bit about the emerging missile defense threats 
from Iran. That said, Iran currently has the largest short- and 
medium-range missile force in the Middle East. Lieutenant 
General Campbell, can you tell me whether you believe we have a 
sufficient number of missile defense capabilities to defend our 
deployed forces and allies in the Central Command (CENTCOM) 
Area of Responsibility (AOR) against the current Iranian 
missile threat?
    General Campbell. Madam Chairman, I think we have 
sufficient forces to defend those priority assets that the 
commander designates in that particular theater. Could we cover 
every possible population center and every host nation asset? 
The answer to that would be no, today.
    Now, with the addition of THAAD, and we add those layers to 
the defense, and the Aegis BMD, then I think we are going to 
have a capability that can protect many more assets in the 
theater. I think if you looked inside any theater, you would 
probably get the same response from that commander, that those 
assets we designate as critical to the warfighter and those 
selected population centers, we can protect those.
    Ms. Tauscher. Do we have the capability to support Aegis 
BMD operations in CENTCOM AOR?
    General Campbell. I don't think I can answer for CENTCOM, 
but you could deploy the ship into CENTCOM today. I think that 
ship in fact has deployed into CENTCOM already on a tour.
    Ms. Tauscher. Into the second carrier battle group.
    And what about PACCOM AOR? Do we currently have enough?
    General Campbell. Again, if we look at the defended asset 
list, we have recently deployed additional PAC-3 units to 
Okinawa. We have thickened the defense on the Korean Peninsula. 
I would think if you asked the combatant commander of PACCOM 
and the commander of United States Forces Korea (USFK), he 
might answer no, that he would like more protection, but in 
terms of critical asset list, I think today that we have that 
in place.
    Ms. Tauscher. Mr. Everett, do you have any further 
questions?
    Mr. Everett. Madam Chairman, I do not, and I appreciate you 
calling the meeting. I would like one final comment to the 
panel, and that is that the continued strong support we have 
for DMD full funding to include Aegis, BMD, PATRIOT, PAC-3 and 
the upgrade of 2's to 3's, THAAD, C2BMC, and the supporting 
defense. And thank you and your leadership for calling this 
meeting again.
    Ms. Tauscher. Thank you, Mr. Everett.
    I thank the members for attending.
    Gentlemen, thank you very much for not only your 
significant service to the country, but your willingness to 
come to the hearing to give us your opinions, to give us very 
thoughtful statements ahead of time.
    I would be remiss if I didn't thank the very seriously 
hardworking staff that you have sitting directly behind you 
taking copious notes to everything that we are saying. We see 
many of them in meetings with you. They are apparently very 
hardworking and indefatigable. We thank them for their hard 
work and service to the country.
    Mr. Everett. I just want to thank you for mentioning to the 
panel, for thanking them for getting the statements in on time. 
I just left an intel meeting where our good friend Silvestre 
Reyes told the panel, he says, for the last time, to get those 
statements in one time so we can structure the meeting. So I 
want to thank you for bringing that up.
    Ms. Tauscher. I thank the ranking member. I think one of 
the reasons why we are able to do that is because we have a 
very significantly hardworking professional staff on both the 
subcommittee and the committee. I want to thank them for their 
very hard work and their support.
    Thank you all very much for attending this hearing.
    The hearing is adjourned.
    [Whereupon, at 4:43 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 27, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 27, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7954.001
    
    [GRAPHIC] [TIFF OMITTED] T7954.002
    
    [GRAPHIC] [TIFF OMITTED] T7954.003
    
    [GRAPHIC] [TIFF OMITTED] T7954.004
    
    [GRAPHIC] [TIFF OMITTED] T7954.005
    
    [GRAPHIC] [TIFF OMITTED] T7954.006
    
    [GRAPHIC] [TIFF OMITTED] T7954.007
    
    [GRAPHIC] [TIFF OMITTED] T7954.008
    
    [GRAPHIC] [TIFF OMITTED] T7954.009
    
    [GRAPHIC] [TIFF OMITTED] T7954.010
    
    [GRAPHIC] [TIFF OMITTED] T7954.011
    
    [GRAPHIC] [TIFF OMITTED] T7954.012
    
    [GRAPHIC] [TIFF OMITTED] T7954.013
    
    [GRAPHIC] [TIFF OMITTED] T7954.014
    
    [GRAPHIC] [TIFF OMITTED] T7954.015
    
    [GRAPHIC] [TIFF OMITTED] T7954.016
    
    [GRAPHIC] [TIFF OMITTED] T7954.017
    
    [GRAPHIC] [TIFF OMITTED] T7954.018
    
    [GRAPHIC] [TIFF OMITTED] T7954.019
    
    [GRAPHIC] [TIFF OMITTED] T7954.020
    
    [GRAPHIC] [TIFF OMITTED] T7954.021
    
    [GRAPHIC] [TIFF OMITTED] T7954.022
    
    [GRAPHIC] [TIFF OMITTED] T7954.023
    
    [GRAPHIC] [TIFF OMITTED] T7954.024
    
    [GRAPHIC] [TIFF OMITTED] T7954.025
    
    [GRAPHIC] [TIFF OMITTED] T7954.026
    
    [GRAPHIC] [TIFF OMITTED] T7954.027
    
    [GRAPHIC] [TIFF OMITTED] T7954.028
    
    [GRAPHIC] [TIFF OMITTED] T7954.029
    
    [GRAPHIC] [TIFF OMITTED] T7954.030
    
    [GRAPHIC] [TIFF OMITTED] T7954.031
    
    [GRAPHIC] [TIFF OMITTED] T7954.032
    
    [GRAPHIC] [TIFF OMITTED] T7954.033
    
    [GRAPHIC] [TIFF OMITTED] T7954.034
    
    [GRAPHIC] [TIFF OMITTED] T7954.035
    
    [GRAPHIC] [TIFF OMITTED] T7954.036
    
    [GRAPHIC] [TIFF OMITTED] T7954.037
    
    [GRAPHIC] [TIFF OMITTED] T7954.038
    
    [GRAPHIC] [TIFF OMITTED] T7954.039
    
    [GRAPHIC] [TIFF OMITTED] T7954.040
    
    [GRAPHIC] [TIFF OMITTED] T7954.041
    
    [GRAPHIC] [TIFF OMITTED] T7954.042
    
    [GRAPHIC] [TIFF OMITTED] T7954.043
    
    [GRAPHIC] [TIFF OMITTED] T7954.044
    
    [GRAPHIC] [TIFF OMITTED] T7954.045
    
    [GRAPHIC] [TIFF OMITTED] T7954.046
    
    [GRAPHIC] [TIFF OMITTED] T7954.047
    
    [GRAPHIC] [TIFF OMITTED] T7954.048
    
    [GRAPHIC] [TIFF OMITTED] T7954.049
    
    [GRAPHIC] [TIFF OMITTED] T7954.050
    
    [GRAPHIC] [TIFF OMITTED] T7954.051
    
    [GRAPHIC] [TIFF OMITTED] T7954.052
    
    [GRAPHIC] [TIFF OMITTED] T7954.053
    
    [GRAPHIC] [TIFF OMITTED] T7954.054
    
    [GRAPHIC] [TIFF OMITTED] T7954.055
    
    [GRAPHIC] [TIFF OMITTED] T7954.056
    
    [GRAPHIC] [TIFF OMITTED] T7954.057
    
    [GRAPHIC] [TIFF OMITTED] T7954.058
    
    [GRAPHIC] [TIFF OMITTED] T7954.059
    
    [GRAPHIC] [TIFF OMITTED] T7954.060
    
    [GRAPHIC] [TIFF OMITTED] T7954.061
    
    [GRAPHIC] [TIFF OMITTED] T7954.062
    
    [GRAPHIC] [TIFF OMITTED] T7954.063
    
    [GRAPHIC] [TIFF OMITTED] T7954.064
    
    [GRAPHIC] [TIFF OMITTED] T7954.065
    
    [GRAPHIC] [TIFF OMITTED] T7954.066
    
    [GRAPHIC] [TIFF OMITTED] T7954.067
    
    [GRAPHIC] [TIFF OMITTED] T7954.068
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 27, 2007

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. The Administration has made cooperation with friends 
and allies a key element of the missile defense program. That said, I 
understand that sharing classified information and technology with 
allies remains a key challenge. To what extent is National Disclosure 
Policy preventing us from sharing missile defense information and 
technology with allies? What needs to be done to fix this? Are 
legislative changes required?
    Secretary Green. As you note, the Administration places a priority 
on cooperation with friends and allies to address the growing ballistic 
missile threat. However, before the Department can offer to sell any 
missile defense system to a foreign country, or to release performance 
related data in support of a potential sale, it must complete three 
reviews. First, critical technologies must be reviewed to ensure that 
appropriate technology security measures are established prior to an 
affirmative decision for release. Second the release of classified 
military information and technical data must be approved by the 
interagency National Disclosure Policy Committee. Third, DoD must 
assess whether there are any Missile Technology Control Regime 
compliance issues. While this process may at times be challenging, it 
is serving its intended purpose of ensuring valuable U.S. technology 
does not end up in the wrong hands or is not used for purposes at odds 
with U.S. interests.
    As previously conveyed in DoD's response to your recent letter 
concerning release of THAAD performance data to Israel, these processes 
are well established with respect to export of missile defense systems 
and supportive of our goals with regard to cooperation, and we believe 
that no legislative changes are required.
    Ms. Tauscher. The FY08 budget request includes funding for two 
additional GMD intercept tests. How many GMD tests can the program 
effectively execute in a given year? If Congress provided funds for an 
additional GMD flight test in FY08, would that be useful?
    General Obering. The GMD flight test program has been sized for two 
system level flight tests annually for several reasons.

    <bullet>  Due to the complexity of integrating new assets with 
existing assets and new software with existing software, verifying the 
software and asset test readiness, managing risk, and executing pre-
mission system level testing and checkout, pre-test preparation time is 
continually increasing.
    <bullet>  The process of mission planning, conducting the test, 
analyzing the data and incorporating the lessons learned into the next 
test takes around 6 months.

    Additional funding for more than two system level flights tests in 
a year, if provided by the Congress, would not be useful because trying 
to add the tests would significantly increase both schedule and program 
risk for the reasons stated above.
    Ms. Tauscher. In the FY08 budget request, MDA is proposing that the 
United States deploy ten ground-based interceptors in Europe. Why does 
MDA only plan ten missiles in Europe? What analysis was done to support 
a decision to move forward with ten GBIs instead of 5, 30, or 40 GBIs?
    General Obering. [The information referred to is classified and 
retained in the committee files.]
    Ms. Tauscher. In its March 2007 report, ``Missile Defense 
Acquisition Strategy Generates Results but Delivers Less at a Higher 
Cost,'' GAO stated that using research and development funds to 
purchase fielded assets reduces cost transparency because these dollars 
are not covered by the full-funding policy for procurement. GAO 
therefore recommended that the Secretary of Defense request and use 
procurement funds, rather than RDT&E funds, to acquire fielded assets. 
This would require MDA to request money in full for the purchase of 
assets and produce an enhanced audit trail. In response to their 
recommendations, DOD responded that its flexible approach is 
appropriate because in an uncertain threat environment, MDA must be 
able to accelerate or modify development of BMDS elements as may be 
required. The Department further asserted that without this 
flexibility, the continuous development of missile defense assets would 
be inhibited. Please explain the effect that fully funding the 
manufacture of fielded assets, such as interceptors and their 
subsequent upgrades, would reduce the Missile Defense Agency's 
flexibility to address new threats?
    General Obering. The Ballistic Missile Defense System (BMDS) is a 
single, integrated development program that provides layered defenses 
for the United States, our deployed forces, friends and allies against 
ballistic missiles of all ranges in all phases of flight. In 2002 the 
Department recognized that this complex and technically challenging 
mission required innovative approaches for developing and acquiring 
missile defenses and charged the Missile Defense Agency (MDA) with 
implementing a capabilities based requirements process to accomplish 
this mission.
    A key advantage of the capabilities based approach is that it 
provides MDA with the ability to make knowledge-based decisions and 
incrementally fund and field increments of capability that best support 
fielding missile defense assets responsive to the threat. This flexible 
approach ultimately results in a reduced cycle time that enables MDA to 
quickly deliver a militarily useful missile defense capability to the 
warfighter.
    The use of procurement funding would seriously hinder this approach 
as a viable development and acquisition strategy by lengthening this 
cycle time and thereby eroding the Agency's ability to provide a timely 
response to current and evolving ballistic missile threats. Analysis of 
data compiled by GAO in its March 2006 report Defense Acquisitions: 
Assessments of Selected Major Weapons Programs shows that the average 
major defense acquisition program has a cycle time of six years between 
program start and authorization for production. So if MDA had been 
pursuing a traditional acquisition program since 2002 with a 
requirement to use procurement funding for fielded assets, the nation 
would likely have no missile defense capability today. Instead, for the 
first time in its history, the United States has a missile defense 
capability composed of numerous ground- and sea-based interceptors as 
well as fixed and transportable radars, all integrated through a battle 
management command and control system. Imposing the full funding policy 
on the BMDS would force the cancellation of most of the Agency's 
development efforts as well as delays in fielding of near-term programs 
currently resourced in the FY08 President's Budget request. These are 
the assets we can least afford to delay. The current capabilities based 
approach using RDT&E funds mitigates this issue and provides the Agency 
with the flexibility to develop and field missile defense assets in the 
shortest possible time.
    The ballistic missile threats of today and tomorrow are both 
uncertain and evolving. In this environment, the traditional approach 
to acquiring defense assets with procurement funds conflicts with the 
urgent need to develop and field missile defenses quickly. MDA has 
proven that missile defenses can be developed and fielded in a more 
compressed timeframe as compared to the traditional acquisition 
approach. The Agency can also implement reporting that provides the 
level of transparency and accountability the Department of Defense and 
Congress have come to expect. Continuing to use RDT&E funds in 
conjunction with a capabilities based approach will enable the Agency 
to continue developing and fielding missile defenses in the shortest 
possible time, and thereby provide the warfighter with a faster and 
more decisive response to the evolving ballistic missile threats. The 
use of procurement funds and use of the traditional acquisition process 
should be deferred until substantial additional BMDS development has 
been completed.
    Ms. Tauscher. ABL and KEI have been discussed as the two viable 
alternatives to conduct boost-phase intercepts. In January 2005, MDA 
established ABL as the primary boost phase defense element, but 
continued KEI's development as risk mitigation. The Missile Defense 
Agency is considering a down select or source selection that would 
decide whether ABL or KEI would be the BMDS boost phase capability. A 
decision on both element's futures was planned for 2008, but ABL 
recently announced that the lethality test that will demonstrate the 
element's critical technologies has been delayed until 2009. Will the 
decision on ABL and KEI be delayed until after ABL's lethality test is 
completed? If ABL's lethality test is delayed past 2009, will the 
agency continue to invest in both ABL and KEI?
    General Obering. The Airborne Laser is the primary Ballistic 
Missile Defense element being developed for providing a boost phase 
capability. As I stated in my written testimony, either ABL or the 
kinetic energy booster will be selected to provide the primary boost 
phase capability before 2010 based upon information gathered during 
initial testing.
    Based on the Defense Science Board's recommendation, we are 
considering KEI's booster development effort as an alternative boost 
phase capability in the event ABL does not meet critical knowledge 
points in its test program. If the Airborne Laser meets its knowledge 
points, and other factors are conducive to continuing the ABL we will 
not pursue KEI as a boost phase defense segment within the Ballistic 
Missile Defense System.
    The Airborne Laser is on track to conduct a lethal shoot down of a 
ballistic missile target in 2009 and the Kinetic Energy Interceptor is 
on track to conduct a flight test of its high acceleration booster in 
2008. Each test contributes essential knowledge about the technical 
feasibility of these approaches; knowledge that is required to make an 
informed decision.
    Ms. Tauscher. The ABL program experienced a number of technical 
problems during Fiscal Year 2006 that may impact future decisions for 
the BMDS program. The problems which were partially due to Beam 
Control/Fire Control software difficulties, but were also caused by 
integration and testing of the system including unexpected hardware 
failure resulted in a 3-1/2 month delay in its ground test program. The 
program planned to demonstrate its critical technologies in 2008 during 
a lethality demonstration. However, fiscal year 2006 delays have pushed 
the planned lethality demonstration into 2009. Have all software 
problems been resolved? If not, what is the plan to correct all issues 
and will the corrective actions further delay the lethality test 
planned for 2009.
    General Obering. All required software issues encountered during 
FY06 have been fixed; however, as of May 21, not all software fixes 
have been tested in flight. The two major issues encountered during 
ground test were the automated engagement sequence through propagation 
of the Surrogate High Energy Laser (SHEL) and the ability to place the 
required energy on target, i.e. strehl. Both issues have been addressed 
and have undergone regression testing on the ground. Final verification 
will occur during the on-going flight test program that is expected to 
be completed in July, 2007. The 2009 lethality test date was set based 
upon a joint contractor/program office schedule risk assessment that 
considered the time required to resolve known technical issues. Further 
delays to the 2009 lethality test are not anticipated at this time.
    Ms. Tauscher. A recent end-to-end test conducted by the GMD system 
was successfully executed in September 2006 for one engagement 
scenario. According to GMD personnel, the interceptor used in this test 
had been retrofitted with more reliable components. What modifications 
were made to the test interceptor prior to the test? How similar is the 
test interceptor, including its booster and exoatmospheric kill 
vehicle, to interceptors already emplaced in silos? Did the 
modification to the test interceptor lead to any delays in the test? If 
so, how did the delay affect GMD's test schedule? Does MDA plan to 
retrofit all emplaced interceptors to the configuration of the test 
interceptor? If so, when will all retrofits be completed and at what 
cost?
    General Obering. As components were being upgraded, they were added 
to the test interceptor to flight test the upgrades prior to deployment 
to the field. The key change was to retrofit the Polyacrylonitrile 
(PAN) Stage One booster nozzle with a rayon nozzle, which was qualified 
and installed on the interceptor on June 8, 2006. Interceptors began 
fielding with this nozzle following this successful flight test. The 
FTG-02 test interceptor was also retrofitted with software upgrades in 
the Exoatmospheric Kill Vehicle (EKV) and Booster Avionics Module 
(BAM). Again, these upgrades had completed ground testing before flight 
testing. Due to a suspect potentiometer, the Stage 2 and 3 Thrust 
Vector Control Actuators were replaced with a like unit which was not 
suspect.
    One major goal of the GMD flight test program is to test 
operationally configured GBI with as few changes as possible. The 
primary differences are instrumentation to gather data from the test 
GBI and the addition of required range safety hardware, such as a 
flight termination system. The GBI used in FTG-02 did have some 
hardware differences from the GBI which were emplaced at that point. 
The differences were the upgrades described above. These hardware 
upgrades began fielding this year, and the current fielding 
configuration matches (except for instrumentation and range safety test 
hardware) the GBI used in FTG-02. Software flown on FTG-02 included 
enhanced capabilities for the EKV. These capabilities have begun 
fielding and will be completed by June 2007.
    Due to the overwhelming success of FT-1 in December 2005, the 
decision was made to change FTG-02 into a full Ballistic Missile 
Defense System (BMDS) test including a threat-representative target. 
This increased test risk by adding significantly to the pool of assets 
required and to the overall test complexity. An additional flight test 
was modified (FT-04-1) prior to FTG-02 from a radar check-out test to a 
full BMDS system test with a simulated GBI. FT-04-1 was successfully 
conducted on 23 Feb. 06 and served to reduce overall BMDS risk 
sufficiently to enable additional test objectives to be accomplished in 
FTG-02 well beyond those originally planned. This contributed to the 
delay of FTG-02 and allowed sufficient time to incorporate several 
upgrades to the interceptor which also served to mitigate risk. The 
success of FTG-02 enabled early demonstration of test objectives 
originally planned for completion through FTG-04. Accordingly, 
additional BMDS sensors and test objectives have been included in FTG-
04, thereby increasing the value of FTG-04 to overall BMDS 
verification.
    MDA plans to take advantage of the periodic GBI maintenance 
activities referred to as the GBI Refurbishment program to upgrade 
interceptors LDC 1-17 to the current configuration. The GBI 
Refurbishment program was modeled after the Intercontinental Ballistic 
Missile periodic maintenance, which removes each missile on a rotation 
schedule and performs quality, shelf life and performance checks. The 
GMD plan is to remove the first interceptor just short of the five year 
point. The cost for the refurbishment program, to include both periodic 
maintenance and all upgrades and improvements for the first 17 GBIs 
emplaced, is contained within the 2008 Presidents Budget and totals 
$72.5 million. MDA plans to complete the periodic maintenance and GBI 
retrofits in Fiscal Years 2009 and 2010. The EKV software upgrade for 
all emplaced interceptors will be completed by the end of June 2007 at 
a cost of $3.2M. All emplaced interceptors beyond LDC-17 already have 
rayon Stage One nozzles and the other incremental improvements listed 
above.
    Ms. Tauscher. The committee has been told that one of the key 
elements limiting the current missile defense test program is the lack 
of infrastructure. What specific actions can be taken to improve MDA's 
testing infrastructure? What are the costs associated with those steps?
    General Obering. MDA has made focused infrastructure investments to 
support both flight and ground testing.
    For flight test events, MDA has successfully integrated the service 
test ranges to meet the test requirements of the Ballistic Missile 
Defense System (BMDS). MDA relies on the services to maintain the 
assets that fall under the Major Range and Test Facility Base with 
oversight from the Department of Defense Test Resources Management 
Center. Given the unique testing requirements and constraints, MDA has 
limited influence on infrastructure at the ranges. To augment the 
capabilities of the service test ranges, MDA has focused investments on 
mobile test assets and upgrades to the MRTFB assets that directly 
support those requirements. MDA recently completed development of two 
transportable telemetry systems. One is land-based at the Naval Air 
Station, Whidbey Island; the other is hosted on the Pacific Collector, 
an ocean going ship. Both assets provide a great deal of scenario 
flexibility. MDA is also developing a transportable S/X-band radar to 
further enhance our data collection capability. For ground test events, 
MDA has developed dedicated labs that provide element representations 
to support dedicated system-level testing. MDA recently completed 
development of a dedicated C2BMC test lab and recently initiated 
development of a test support capability to provide a more robust SBIRS 
emulation in our ground testing. We are also developing plans to 
transition one of the GMD tests labs to provide dedicated system-level 
test support. With these initiatives and investments, MDA is well-
position to support future test requirements.
    For ground test events, additional system test infrastructure would 
provide for a more robust test capability, including Command, Control, 
Battle Management, and Communications (C2BMC) infrastructure and a 
Ballistic Missile Defense System (BMDS) test control center at the 
Missile Defense Integration and Operations Center (MDIOC). This would 
enable BMDS interoperability and performance testing of the integrated 
BMDS without impacting concurrent system development and fielding 
activities.
    While the President's Budget fully supports MDA flight and ground 
testing, these specific items would further improve MDA's ability to 
robustly test the BMDS:

    <bullet>  System ground test infrastructure (C2BMC and test control 
center) at the MDIOC ($10M)
    <bullet>  Dedicated mobile satellite communications shelter to 
support testing of deployed test assets. ($10M)
    <bullet>  Upgrades to Vandenberg Air Force Base Range Safety and 
Telemetry infrastructure to support classified operations and higher 
data rates and integrate secure communications throughout the base's 
test facilities ($15M).

    These areas will be given priority in our PBR-09 planning process.
    Ms. Tauscher. One of the key limiting factors of MDA's test program 
has been the lack of sufficient number of missile defense targets. Do 
you currently have a sufficient amount of targets to execute your 
testing program? If not, what can we do to improve the number of 
targets? Would additional funds in this area be helpful?
    General Obering. MDA Targets and Countermeasures Directorate (MDA/
TC) presently has a sufficient number of target vehicles to cover the 
current Ballistic Missile Defense System (BMDS) test plan. However, MDA 
does not have the funding to provide spare targets in support of test 
plans.
    The Flexible Target Family (FTF) provides greater performance 
capability, a reduced build time, a portfolio-wide systems engineering 
approach, and greater commonality of parts. In this way, the FTF offers 
assurance of having the target hardware needed to adjust to changing 
test requirements with minimum lead time. Building the Flexible Target 
Family (FTF) of interchangeable target components enhances the BMDS 
test program. A ready inventory of components common to a number of 
target configurations that can be used by the BMDS test program would 
implement significantly reduced turnaround times.
    Additional funding of the FTF targets and countermeasures would 
allow greater flexibility toward inventory-based procurement and 
management of targets to mix and match to reduce lead time.
    Ms. Tauscher. The committee has been informed that the Missile 
Defense Agency plans to reduce the total number of THAAD flight tests 
by three. What were the key reasons behind the decision to reduce the 
number of THAAD flight tests? What are the risks associated with 
reducing the number of THAAD tests?
    General Obering. The philosophy of the THAAD flight test program is 
to conduct tests of increasing complexity to demonstrate system 
performance and to provide data to anchor system models and 
simulations. As successful flight tests are conducted, data analysis is 
performed, and confidence gained through success, the remaining flight 
test matrix is reviewed to ensure the data requirements are still 
valid. There were three factors considered in reducing flight tests:

      (1)  Successes realized in the initial flight and ground tests 
has reduced risk for the balance of planned tests.
      (2)  Successes created an opportunity to realize cost savings to 
mitigate unfavorable cost variances without compromising data 
collection to anchor models and simulations.
      (3)  Reduced flight tests minimized cost and schedule risk given 
scarce range and target resources.

    In summary, all the flight test objectives of the deleted three 
flights were reallocated to remaining flights and will be demonstrated 
in those future missions.
    Ms. Tauscher. I understand that THAAD's performance could be 
enhanced/increased by adding a second-stage to the current interceptor. 
Have you done any modeling examining the contribution that an upgraded 
THAAD could make to the overall missile defense mission? Does MDA plan 
to put any money into exploring this option? If not, why?
    General Obering. The Terminal High Altitude Area Defense (THAAD) is 
an emerging capability for area defense. The Agency has conducted 
analysis of THAAD's performance with a second-stage booster to the 
current interceptor for several scenarios to include the defense of 
Europe against an Iranian threat and the defense of the DC area against 
a similar threat. Adding a second-stage to the THAAD interceptor is 
only one of many enhancements to THAAD that the Department is 
considering. The Department has not made a decision on increasing the 
robustness of the capability for regional defense. We are continuing to 
evaluate the efficacy of ``growth THAAD'' capability to the BMDS as 
part of the MDA 2007 Summer Study. THAAD shows great promise, and its 
capability needs to be examined further with regard to sensor and 
command and control networks to optimize the design to meet BMDS 
performance requirements.
    Ms. Tauscher. Is the SM-3 Block 1B missile capable of protecting 
the Fylingdales radar from an intermediate range ballistic missile from 
Iran?
    General Obering. [The information referred to is classified and 
retained in the committee files.]
    Ms. Tauscher. According to MDA budget materials, the ABL will no 
longer be described as part of the BMDS block structure organization, 
but as a capability investment designation. Why did MDA make this 
change? When does MDA expect to have a deployable ABL capability?
    General Obering. Beginning with our FY08 President's Budget 
request, MDA is not associating a program with a specific block if the 
estimated schedule for that program does not provide a missile defense 
capability until after the Block 2012 timeframe. Instead, these 
programs are considered to be capability investments that will address 
threat maturation, uncertainty and surprise beyond the current FYDP. 
This approach is a result of our continuing review of the BMDS block 
structure.
    This approach is also responsive to GAO concerns. With respect to 
ABL, GAO has noted that while the Agency has been including resources 
for ABL in the budget breakdowns for various blocks, there were no 
plans for ABL to provide a missile defense capability within the 
timeframes for the blocks listed in the Agency's FY08 budget request. 
Removing ABL from the block structure resolves this disconnect and 
responds to the GAO's concern.
    MDA expects that ABL will have a deployable capability no earlier 
than 2017. Pending successful completion of the lethal demonstration 
scheduled for 2009, the ABL Tail 1 test asset could be used to provide 
a limited defensive capability if needed.
    Ms. Tauscher. General Obering, you have stated that there is 
effective oversight of the Missile Defense Agency, but that oversight 
is conducted at the ``principal'' not the staff level. How can there be 
effective oversight at the principal level if their staffs are not 
fully engaged in the process?
    General Obering. Remarks I have made on this point in various 
forums were never meant to convey that support staff is not fully 
engaged in these matters. My reference to involvement at the principal 
level was intended only to emphasize the direct involvement of senior 
leaders in the Department on missile defense issues. As a matter of 
routine, appropriate MDA staff is fully engaged with their counterparts 
in oversight offices such as AT&L, DOT&E and others. Furthermore, my 
staff is equally engaged with all the major stakeholders in the BMDS 
program including STRATCOM, the Combatant Commands, the Services. The 
contribution of staff is invaluable both to supporting oversight of MDA 
and ensuring effective development and fielding of missile defenses, 
and it was never my intention to suggest otherwise.
    Ms. Tauscher. In 2002, former Secretary of Defense Rumsfeld 
exempted the Missile Defense Agency from the normal DOD requirements 
process. I understand that STRATCOM and MDA have developed a new 
program called the Warfighter Involvement Program (WIP) to ensure 
warfighter views are incorporated into the missile defense development 
process. What are the key elements of the Warfighter Involvement 
Program? To date, are you satisfied with the Warfighter Involvement 
Program? What happens if there's a disagreement between STRATCOM and 
MDA on an issue? How are differences resolved? Are there areas where 
the process could be improved?
    General Campbell. U.S. Strategic Command developed the Warfighter 
Involvement Process (WIP) to provide Warfighters an input mechanism to 
the Missile Defense Agency's (MDA) development process. The WIP is a 
collaborative forum between the Warfighters from the Combatant Commands 
to identify, analyze, and prioritize capability needs for global 
missile defense. The products of the WIP include the Prioritized 
Capabilities List (PCL), designed as a vision document for overall 
capabilities needed for a missile defense system, and the Modification 
Request List (MRL), designed as a document to express Warfighter 
desired modifications to fielded systems.
    To date, two versions of the PCL and one version of the MRL have 
been published. In response, MDA has acted upon a number of capability 
needs, within current fiscal constraints, to address Warfighters' 
needs. MDA also plans to conduct detailed analysis this year to respond 
to the 2007 PCL, published earlier this year. The WIP process, and 
MDA's response to the Warfighter needs, is governed by the Ballistic 
Missile Defense (BMD) Management Structure. This body provides the 
corporate governance to address pressing issues between the 
stakeholders.
    The process was established two years ago and has taken hold. The 
Warfighter and MDA are embracing the process and continue to make 
improvements. We are making progress in institutionalizing the WIP to 
address evolving challenges of developing and deploying the BMDS 
capability.
    Ms. Tauscher. The Missile Defense Agency is first and foremost a 
research and development organization. However, over the past several 
years it has assumed a number of other missions because the military 
services have generally been reluctant to assume responsibility for 
procuring, fielding, and sustaining missile defense capabilities. 
General Campbell, in your view, is the Missile Defense Agency in its 
present form organized appropriately to provide effective support to 
the warfighter? Should we consider refocusing MDA's mission from 
research and development to combat support?
    General Campbell. The Missile Defense Agency (MDA) has assumed 
additional missions in recent years in response to Presidential 
direction to field an initial set of missile defense capabilities. The 
Agency has satisfied this requirement by fielding developmental assets 
and providing funding for their operation and sustainment.
    The Warfighters and Services are working closely with MDA to 
provide the needed capability. MDA recently established the Warfighter 
Support Center at the Missile Defense Integration and Operations Center 
(MDIOC) in Colorado Springs, collocated with the Joint Functional 
Component Command for Integrated Missile Defense (JFCC-IMD). This new 
organization is already paying dividends with respect to the deployed 
BMDS' operation and sustainment. The Warfighter Support Center provides 
timely and effective support to the Warfighter.
    As for combat support, MDA has been aggressively supporting the 
Warfighter mission areas by fielding new systems immediately through 
future upgrades and spiral development. MDA is providing an equitable 
balance between providing the initial support to transition capability 
to a Lead Service while continuing the research and development 
mission. There are no plans at this time to refocus MDA's mission from 
research and development to combat support.
    Ms. Tauscher. In 2002, the Unified Command Plan (UCP) assigned the 
U.S. Strategic Command (STRATCOM) responsibility for planning, 
coordinating, and integrating global missile defense operations. That 
said, much has occurred since then. Given the lessons we have learned 
since 2002, do you anticipate any changes or revisions to the UCP with 
regard to missile defense? If so, what changes? Is it possible that 
STRATCOM could potentially be assigned execution authority?
    General Campbell. Over the past four years, U.S. Strategic Command 
(USSTRATCOM) has made great strides in taking global missile defense 
from vision to reality. Two key significant milestones are the standing 
up of the Joint Functional Component Command for Integrated Missile 
Defense (JFCC-IMD) as well as the fielding of a midcourse ballistic 
defense system capable of defeating North Korean intercontinental 
ballistic missiles threatening the United States. We have learned that 
global missile defense is much more than just ballistic missile defense 
and I envision a possible advocacy role for USSTRATCOM to develop 
desired capabilities and characteristics on behalf of all the 
Warfighters for cruise missile defense.
    USSTRATCOM currently has execution responsibilities for aspects of 
ballistic missile defense such as operating critical sensor and command 
and control capabilities in support of geographic combatant commanders 
defending their area of responsibility. As the ballistic missile 
defense system architecture continues to expand, we will continue to 
assess how best to realize global missile defense and to provide 
support to regional combatant commanders.
    Ms. Tauscher. Currently, all Aegis ships capable of conducting BMD 
operation are assigned to the Pacific and I understand that Commander 
7th Fleet is reluctant to release any of these vessels to other 
theaters such as CENTCOM and EUCOM. At the same time, the United States 
and its friends and allies face a growing threat from Iranian short and 
medium range ballistic missiles. Is there currently a requirement to 
provide a permanent Aegis BMD engagement capability in the CENTCOM AOR? 
If Commander 7th Fleet is reluctant to release Aegis BMD engagement 
ships to other regions of the world, are there any plans upgrade 
additional Aegis ships to support CENTCOM and EUCOM?
    General Campbell. There is currently not a requirement to provide a 
permanent Aegis BMD engagement capability to the CENTCOM AOR, however, 
several Aegis BMD ships have deployed to CENTCOM recently through the 
normal rotation of forces assigned. When a requirement for BMD forces 
emerges in a particular theater, it will be articulated and evaluated 
through the existing request for forces process and a sourcing solution 
will be developed. Pacific Command, Pacific Fleet, and Seventh Fleet 
fully support this process and are aware of the potential for providing 
Aegis BMD capability outside the PACOM AOR.
    It is important to note that Aegis BMD engagement capability is in 
the early stages of fielding, and although the Navy is aggressively 
making ship conversions and building missiles, we have a thin line of 
SM-3 capability for the near-term. The current development program 
includes 16 Pacific-based ships and two Atlantic-based ships by 2009. 
These ships are deployable world-wide; however, response time is 
situation dependent.
    Ms. Tauscher. I understand that U.S. Strategic Command has recently 
completed a Capabilities Mix Study that examined the missile defense 
requirements of the combatant commanders. What did the Capabilities Mix 
Study have to say about COCOM requirements for SM-3 and THAAD? 
According to the study, do we have sufficient numbers of SM-3 and THAAD 
interceptors to meet current requirements?
    General Campbell. The Joint Capabilities Mix (JCM) Study is an 
iterative opportunity for the joint communities of interest (including 
COCOMs, Services and the Missile Defense Agency) to explore weapons and 
sensor mixes to counter the expected threats in three major theaters of 
operation in future epics. JCM I concluded in April 2006 and influenced 
MDA programmatic decisions to increase the number of THAAD Firing Units 
and interceptors, increase SM-3 interceptors, and start the Sea-Based 
Terminal program. JCM II has just concluded and results are being 
staffed and briefed through the Joint Requirement Overview Council 
(JROC) process. The findings provide an initial recommendation of the 
minimum number of upper-tier (THAAD and SM-3) interceptors needed for 
combat operations in 2015 for a near-simultaneous two MCO fight. 
Additional study will be required to further refine the analysis; 
however, results from this study indicate that for certain 
contingencies there is a need for more upper-tier interceptors than are 
currently programmed.
    Ms. Tauscher. In September 2006, GMD conducted a successful end-to-
end test for one engagement sequence resulting in an intercept. 
Independent test agencies report that while this test was important it 
is not sufficient to provide high confidence in the models and 
simulations that predict BMDS performance. In addition, Operational 
Test Agency officials suggested that the WILMA model currently used to 
predict BMDS performance does not have sufficient fidelity for BMDS 
performance analysis. The Missile Defense Agency is currently 
developing a replacement for the WILMA model. In the opinion of the 
Office of the Director, Operational Test and Evaluation, how many GMD 
tests are needed to have high confidence that GMD can intercept 
intercontinental ballistic missiles? When will the development and 
testing of the replacement for the WILMA model be completed? Until the 
new model is developed, what confidence does the Missile Defense Agency 
have in its ability to predict the performance of the BMDS?
    Mr. McQueary. Fiscal constraints will likely make it impossible to 
achieve statistical confidence in the operational effectiveness and 
suitability of the BMDS. For example, to achieve 80% confidence that an 
element can perform its mission successfully 80% of the time (80/80), 
the element would have to complete 10 consecutive, successful flight 
tests using the same geometry, scenario, and hardware/software 
configuration. For higher confidence/success, the number of 
consecutive, successful tests is even higher: 90/80-13, 80/90-21, and 
90/90-28. Therefore, assessing the operational effectiveness and 
suitability for each element is going to be a combination of flight 
tests and modeling and simulation. If I have validated models and 
simulations, the currently planned flight test programs for Aegis BMD 
and THAAD should be adequate for me to assess operational effectiveness 
and suitability for their current spiral development phases. This 
assumes no further reductions in their currently planned flight test 
programs. On the other hand, the current GMD flight test program has 
not yet completed the quantity of flight tests of the THAAD or Aegis 
BMD programs. It has had only one successful, operationally realistic 
demonstration of its ability to destroy a threat representative target. 
Many more flight tests are needed to demonstrate repeatability and to 
anchor the models and simulations.
    General Obering is following a prudent ``test-analyze-fix-test'' 
approach which, when he finds problems, results in testing delays. For 
example, he delayed FTG-03 to May 2007 to fix software and add test 
equipment to the kill vehicle. At the same time, MDA must validate its 
models, a process directly related to flight testing. As a result, at 
this time it is impossible for me to estimate the number of successful 
flight tests I will need to assess GMD operational effectiveness and 
suitability.
    The WILMA model replacement is one, but not the only, BMDS-level 
model needed for BMDS performance assessments. For the BMDS, there are 
BMDS-level models and there are element-level models. I need both, 
correctly and efficiently working together, to accurately assess 
capability. Generally, the element-level models are more mature, have 
detailed validation plans, and are progressing toward validation 
through ground and flight testing. The BMDS-level models are not ready 
for use in my assessments, but are scheduled to be ready to assess the 
FTG-04 pre- and post-test events and the Block 06 BMDS in the fall of 
2007. I am working with MDA to understand the details and the timelines 
associated with development, integration, and validation of the BMDS-
level models. The only way MDA can validate that these models 
accurately predict BMDS performance is to ``anchor'' them to flight 
test data, and we are working together to achieve this goal.
    Ms. Tauscher. The committee has been informed that the Missile 
Defense Agency plans to reduce the total number of THAAD flight tests 
by three. What are the risks associated with reducing the number of 
THAAD tests? Does DOT&E agree with the decision to reduce the number of 
flight tests?
    Mr. McQueary. Following the completion of the Demonstration/
Validation phase in 1998, the THAAD program developed a set of critical 
factors (such as intercept altitude and radar detection range) that 
should be tested at stressing values to validate system performance 
throughout the battlespace. THAAD's new flight test program will 
examine as many critical factors as possible. The number of critical 
factors stressed during testing has remained about the same. However, 
the number of times any critical factor is stressed during flight 
testing has been reduced by about a third. Validation of models and 
simulations should still be possible with the reduced number of 
flights, but, because of the large number of critical factors tested in 
relatively few flight tests, any single test failure would now 
jeopardize model validation.
    Target availability issues would have caused significant problems 
for the THAAD program without a flight test program redesign. DOT&E 
supports the decision to reduce the number of flight tests, but 
cautions that any flight test failure will likely require the program 
to add further testing.
    Ms. Tauscher. The committee has been told that one of the key 
elements limiting the current missile defense test program is the lack 
of infrastructure. What specific actions can be taken to improve MDA's 
testing infrastructure?
    Mr. McQueary. There are two infrastructure issues that limit the 
current missile defense test program: availability of targets and 
implementation of Concurrent Test, Training, and Operations (CTTO). 
First, target availability and reliability is affecting flight test 
program schedules. For example, MDA was forced to change the THAAD 
flight test program recently because of target issues. MDA is 
reengineering its target program to resolve the reliability issues with 
the current targets, and increase emphasis on the timely development 
and procurement of targets and spares to support all BMDS test 
programs. Additionally, the Flexible Target Family Program which 
consolidates management, design, and production of ballistic missile 
targets utilizing retired Navy Trident C-4 boosters, will increase 
reliability, performance and throughput. Second, MDA and the 
warfighters are not able to concurrently test, train, and operate the 
Ballistic Missile Defense System (BMDS), a procedure known as CTTO. 
Because the ability to conduct concurrent testing and operations is 
limited, the cost in resources and schedule is significant when testing 
must be delayed while portions of the BMDS are ``on alert''. Training 
on the system is limited by peacetime and safety constraints. MDA has 
funded its plan to establish the BMDS architecture necessary to achieve 
CTTO.
    Ms. Tauscher. The U.S. and Israel have a long and deep cooperation 
in missile defense. Can you provide us an update on current U.S.-
Israeli Cooperation? Are there impediments standing in the way of 
increased cooperation?
    Secretary Green. U.S.-Israeli missile defense cooperation has been 
extensive. In the past, Israel has acquired PATRIOT systems, and we 
have cooperated to develop the Arrow Weapon System (AWS). We continue 
to work together on the Arrow System Improvement Program to enhance the 
AWS operational capabilities. U.S. companies are also co-producing 
Arrow components under the Arrow Enhanced Component Production Process. 
We are also negotiating with Israel on David's Sling, a new cooperative 
development program to counter short-range ballistic missiles. We are 
not aware of any impediments to increased cooperation. While, current 
laws and regulations require all technology transfers to be scrutinized 
on a case-by-case basis, such a review is consistent with U.S. national 
security interests.
    Ms. Tauscher. In the FY08 budget request, MDA announced that it 
plans to replace the unitary warhead on the SM-3 Block IIA missile--
which the United States is co-developing with Japan--with the multiple 
kill vehicle (MKV). To what extent did the Department of Defense 
consult with Japan before it made the decision to replace the unitary 
warhead on the SM-3 Block IIA missile with the MKV? What has been the 
Japanese response to the U.S. decision?
    Secretary Green. The FY 2008 President's Budget Request reflects 
the co-development with Japan of the SM-3 Block IIA with a unitary 
warhead. The Department has not made the decision to change the Block 
IIA payload to a multiple kill vehicle (MKV). The U.S. has raised the 
subject with Japan within the context of addressing more complex 
threats and has asked the Japanese to participate in a joint analysis 
to determine the efficacy of the MKV on the Block IIA. The Japanese are 
evaluating whether and how to participate in the joint analysis.
    Ms. Tauscher. Until recently, there had been strong public support 
in Poland and the Czech Republic for deploying U.S. missile defense 
capabilities on their respective territories. However, over the past 
several months, public support for the potential deployment has begun 
to decrease. What have been the key reasons contributing to the change 
in public opinion in Poland or the Czech Republic? What impact will 
this have on our decision to move forward?
    Secretary Green. While I do not want to speculate on what factors 
may be contributing to public opinion in Poland and the Czech Republic 
on this issue, it is clear that the host governments are beginning to 
conduct public awareness campaigns to enable their citizens to gain a 
better understanding of U.S. plans to base missile defenses in their 
countries. We are complementing these efforts by engaging the wider 
European community on our missile defense plans to communicate how our 
efforts contribute to overall regional security.
    The host nation governments continue to support U.S. missile 
defense basing plans. We are moving forward with plans to complete 
negotiations on basing and security agreements later this year. These 
negotiated agreements ultimately must be approved by the parliaments of 
each country, and the U.S. remains attentive to the level of public and 
parliamentary support.
    Ms. Tauscher. In testimony before the committee, you stated: ``NATO 
as an alliance develops very few of its own capabilities. Most of its 
capabilities are actually developed by individual nations or smaller 
groupings with NATO that develop a particular capabilities, and then 
offer those capabilities in the context the NATO alliance.'' While that 
is true, don't nations usually offer those capabilities in the context 
of an overarching NATO requirement? Is there currently a NATO 
requirement for protection of Alliance territory and population 
centers?
    Secretary Green. NATO member countries develop and field 
capabilities to meet a wide range of national security objectives. 
These capabilities are integrated into NATO forces through a force 
planning process. Most NATO capabilities are built up in this manner. 
However, should a capability gap or new mission area be identified, 
NATO planners may ask members to fill the gap. NATO itself develops 
very few of its own capabilities, Active Layered Theater Ballistic 
Missile Defense (ALTBMD) being one example.
    NATO completed a study in 2006 on the feasibility of a NATO defense 
for European population and territory from long range missile attack. 
This study concluded that such a defense is feasible. As a result of 
the 2006 feasibility study, NATO is currently assessing the political 
and military implications of such a defense. It recently modified this 
effort to account for the deployment of U.S. missile defense assets in 
Europe.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. Everett. Please address technology risk reduction activities 
for MDA's two boost phase defense programs--ABL and KEI. What are each 
programs critical technologies, what specific actions have been (and 
will be) taken to mature technologies and retire risk, and what 
criteria will be used to evaluate and then down select from among the 
two boost phase programs?
    General Obering. ABL and KEI are important development efforts that 
leverage technological progress to provide capability options to 
address future threats. To minimize technology risks in development, 
these elements of the Ballistic Missile Defense System must achieve 
specific knowledge points unique to that technology before proceeding 
to the next acquisition phase. These planned events contribute 
essential knowledge about the technical feasibility of these 
approaches; knowledge that is required to make an informed decision.
    ABL is on track to conduct a lethal shootdown of a ballistic 
missile target in 2009. The critical risks to be retired in order to 
develop an operational capability and relevant mitigation efforts 
underway are:

    <bullet>  Flight test of beam control and atmospheric compensation 
lasers against a cooperative airborne target. This risk will be 
mitigated by flight testing scheduled to complete the summer of 2007. 
Once the high energy laser is installed on the aircraft, ground and 
flight testing will continue in 2009.
    <bullet>  Integration of high energy laser modules with the 
modified Boeing 747 aircraft in preparation of a lethal shoot-down of a 
ballistic missile target. This risk will be mitigated by integration 
and test activities performed in the System Integration Laboratory 
(SIL), a 747-200 fuselage.
    <bullet>  Reliability of optical system performance, including 
compensation for atmospheric effects, aircraft induced optical jitter, 
and ensuring high beam quality in an operational environment. This risk 
will be mitigated by hardware and software efforts to reduce optical 
jitter and improve beam control performance.

    The KEI development effort has been restructured to focus on high-
acceleration booster component development and test. The critical risks 
to be retired are:

    <bullet>  Integrating high-energy propellants associated with 
smaller tactical missiles into the larger configuration needed to 
achieve high performance, high maneuverability requirements.
    <bullet>  Demonstration of an integrated high-performance trapped-
ball thrust vector control system that increases mission flexibility.

    In 2006, MDA conducted wind tunnel and other risk reduction tests 
to determine KEI performance and assess trapped-ball thrust vector 
control of the first and second stage. Maturation of these technologies 
will continue with booster static fire tests throughout 2007-2008. In 
2008, a prototype 2-stage booster flight test will be conducted to 
demonstrate technology readiness in a flight environment.
    The Airborne Laser is on track to conduct a lethal shoot down of a 
ballistic missile target in 2009 and the Kinetic Energy Interceptor is 
on track to conduct a flight test of its high acceleration booster in 
2008. Each test contributes essential knowledge about the technical 
feasibility of these approaches; knowledge that is required to make an 
informed decision.
    Mr. Everett. Please address technology risk reduction activities 
for MDA's two boost phase defense programs--ABL and KEI. What are each 
programs critical technologies, what specific actions have been (and 
will be) taken to mature technologies and retire risk, and what 
criteria will be used to evaluate and then down select from among the 
two boost phase programs?
    General Campbell. The Airborne Laser (ABL) and Kinetic Energy 
Interceptor (KEI) programs are important development efforts that 
leverage technological progress to provide capability against future 
threats. To minimize technology risks in development, these programs 
must achieve specific knowledge points before proceeding to the next 
acquisition phase. These knowledge points contribute essential 
information about the technical feasibility of these approaches.
    The ABL program is on track to conduct a lethal shootdown of a 
ballistic missile target in 2009. The critical risks to be retired and 
ongoing mitigation efforts to develop an operational capability are:

    <bullet>  Flight testing of the beam control system to include the 
ability to compensate for atmospheric effects. This risk will be 
mitigated by ongoing flight testing scheduled to be completed by this 
summer. Once the high energy laser is installed on the aircraft, ground 
and flight testing will continue through 2009.
    <bullet>  Integration of high energy laser modules in the modified 
747--mitigated by integration and test activities performed in the 
System Integration Laboratory (SIL), a 747-200 fuselage.
    <bullet>  Reliability of optical system performance in an 
operational environment--mitigated by hardware and software efforts to 
reduce optical jitter and improve beam control performance.

    The KEI program has been restructured to focus on high-acceleration 
booster component development and testing to defer investments in 
weapon element development until after the critical knowledge points 
are achieved. The critical risk to be retired is the integration of 
high-energy propellants associated with smaller tactical missiles into 
the larger configuration needed to achieve the high performance and 
high maneuverability for intercept of intercontinental ballistic 
missile threats. In 2006, the KEI program conducted wind tunnel and 
other risk reduction tests to determine energetic performance and 
assess thrust vector control operation of the first and second stage. 
Maturation of these technologies will continue with booster static fire 
tests throughout 2007 and 2008. In 2008, a prototype 2-stage booster 
flight test will continue this maturation and risk reduction in a 
flight environment.
    A boost phase decision will be made after the ABL and KEI programs 
complete their respective knowledge points. In my discussions with 
Missile Defense Agency, I understand that either ABL or KEI will be 
selected as the primary Ballistic Missile Defense boost phase program 
element before 2010.
    Mr. Everett. The Missile Defense Agency is developing the Space 
Tracking and Surveillance System (STSS), formerly known as SBIRS-Low, 
and has other activities ongoing in the space arena. How are your 
offices involved in coordinating MDA's space programs with the rest of 
the Department?
    General Obering. MDA incorporates existing Department space assets, 
like DSP/SBIRS, into both the current operational BMDS, and future 
architecture decisions. The STSS will rely on cues from DSP/SBIRS.

-  MDA involves the Department in development activities to leverage 
expertise, such as the Air Force Research Lab's work on the NFIRE 
sensor payload.
-  MDA's STSS office is located at US Air Force's Space and Missile 
Center in Los Angeles to facilitate working level coordination with 
USAF space development activities.
-  MDA has established a Space Experimentation Center in Colorado 
Springs from which to operate MDA space assets, and to leverage data 
from Department space programs.
-  MDA conducts regular high level Boards of Directors meetings with 
the Services to maintain mutual awareness of developmental and 
operational status--the DoD Executive Agent for Space participates in 
this process.
-  MDA has established a Transition and Transfer process to plan for 
Service operation of BMDS Elements, including STSS.
-  Air Force Space Command (AFSPC) has been designated the lead Service 
component for STSS, and is incorporating STSS into their infrared 
satellite architecture.

    <all>  An Integrated Concept Team has been established to ensure 
AFSPC understanding of STSS capabilities, thereby allowing for a 
smoother transition once AFSPC assumes operational control of STSS.
    <all>  AFSPC is using this information to budget for AFSPC support 
and manpower.
    <all>  MDA is working with AFSPC to ensure suitable Operational 
Testing, and to ensure AFSPC understanding of STSS capabilities.
    Mr. Everett. Additionally, please describe how MDA's sensors could 
contribute to providing space situational awareness?
    General Obering.

-  Based on studies and sensor performance in ground tests, BMDS Block 
2006 is expected to be able to make contributions to space situational 
awareness (SSA), though it will not be able to fully meet AFSPC 
requirements, or be a substitute or replacement for the planned Space 
Based Space Surveillance system (SBSS).

    <all>  Data collection for SSA is simpler than for BMDS operations, 
as the orbits of space objects are generally much more stable than the 
track of a ballistic missile through space.
    <all>  BMDS Block 2006 likely to be able to make 10's of 
observations per day, on a non-interference basis with BMDS tasking.
    <all>  BMDS Block 2006 well suited to collecting information on 
many objects in low, medium, geosynchronous and highly elliptical 
orbits.

-  MDA also has three X-Band radars (AN/TPY-2, SBX, European Midcourse 
Radar) that could contribute to space situational awareness.

    <all>  These radars are capable of providing track data on objects 
in Geosynchronous Transfer Orbit (GTO) and Lower Earth Orbit (LEO).
    <all>  The radars do not currently have the necessary software to 
actively contribute to space situational awareness.
    <all>  The planned upgrade to the European Midcourse Radar includes 
the capability to perform the space situational awareness mission.
    <all>  This software functionality may be retrofitted on the AN/
TPY-2 and SBX radars as a future capability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. Will the system proposed for deployment in Poland and 
the Czech Republic be interoperable with NATO systems to include 
indigenous capabilities? What is MDA doing to ensure interoperability?
    General Obering. The MDA has been working with NATO for over a 
decade to develop strategies and standards to make interoperability 
between the NATO command and control (C2) systems and the US command, 
control, battle management, and communications (C2BMC) system feasible. 
As the gateways to the weapon systems and sensor systems, the 
interoperability between the NATO C2 systems and the C2BMC is 
essential. Since the C2BMC will be a critical element of the deployment 
in Poland and the Czech Republic, the cooperative work accomplished 
between the United States and NATO such as agreement on Link-16 
messages, joint range extension protocol, and commonality of C2 
architecture provides the foundation for interoperability.
    To ensure interoperability, the MDA has worked with the US Defense 
Information Systems Agency (DISA) and with NATO counterparts to 
formalize agreements into Military Standards (US) and Standardization 
Agreement (STANAG-NATO). In addition, the MDA has performed experiments 
with elements of NATO's C2 systems and plans to expand the types and 
functionality of experiments.
    Mr. Franks. Will the system proposed for deployment in Poland and 
the Czech Republic be interoperable with NATO systems to include 
indigenous capabilities? What is MDA doing to ensure interoperability?
    General Campbell. The components of the Ballistic Missile Defense 
System to be deployed in Poland and the Czech Republic will complement 
other NATO defense systems and are consistent with the overall 
direction NATO is taking on missile defense.
    As envisioned, the European components will enhance NATO security 
by providing many NATO allies with defensive coverage against a growing 
threat and by addressing a capability gap within the NATO system. 
NATO's current missile defense programs, and the future Active Layered 
Theater Ballistic Missile Defense (ALTBMD), focus on short and medium-
range threats while the focus of the new European component would be on 
long-range missiles fired from the Middle East.
    The Missile Defense Agency (MDA) has been working with NATO for 
more than 10 years on interoperability between NATO command and control 
systems and U.S. systems, and fully intends to ensure interoperability 
of the BMDS European component.
    The U.S. is already engaged with key Allies in coalition operations 
involving theater missile defense assets. As the Ballistic Missile 
Defense System is deployed in Europe, MDA will ensure the requisite 
technology is readily available to integrate with Allies to provide 
layered missile defense capability. Enhancements to the current 
technical solutions are being examined and demonstrated by MDA and NATO 
to increase interoperability opportunities. Together, the systems will 
provide a significant amount of opportunity for increased pre-crisis 
planning, shared situational awareness, and information sharing. The 
Joint Functional Component Command for Integrated Missile Defense 
(JFCC-IMD) is actively working with the Allies to develop concepts and 
procedures for coalition operations for global missile defense.
    Mr. Franks. What proportion of United States weapons systems or 
other actions whose mission is to defend the United States homeland go 
through the full NATO body, and therefore invite veto by one of the 26 
NATO countries? How many bi-lateral agreements does the United States 
have in place with European nations that are part of NATO? How many bi-
lateral agreements for defense related assets does the United States 
have world-wide?
    Secretary Green. The Department of Defense knows of no U.S. systems 
for homeland defense or other actions related to the defense of the 
U.S. homeland that are subject to NATO approval, including the 
deployment and employment of U.S. strategic deterrent forces. Each 
member country determines its own force structure capabilities and 
levels necessary to meet its national security objectives. NATO 
countries may enter into bilateral or multilateral agreements to 
develop capabilities that can be deployed under NATO sanctioned 
missions, but these cooperative developments are not subject to NATO 
approval.
    The U.S. has concluded a number of bilateral agreements with NATO 
Allies and other countries worldwide. These agreements encompass the 
full range of operational, logistical, and materiel matters, and they 
support a number of U.S. strategic objectives, including the conduct of 
military operations, building foreign capacity, and maintaining our 
global force posture.
    In the area of missile defense, the U.S. has separate bilateral 
agreements with the U.K. and Denmark to use sensors based in their 
countries in support of the strategic missile defense mission to defend 
U.S. territory. We have a bilateral agreement with Canada concerning 
the joint operation of the North American Aerospace Defense Command. We 
have an agreement with Japan to co-develop a larger, more capable 
version of the current sea-based midcourse interceptor that could 
provide defense of portions of the U.S. homeland under certain 
scenarios. The U.S. has several bilateral agreements with Israel 
including cooperative developments of the Arrow Weapon System to 
include co-production, Israeli Test Bed, David's Sling Weapon System 
and other Data Exchange Agreements on missile defense.
    Mr. Franks. (1) What systems designed to intercept a ballistic 
missile in boost phase are proving to be the most successful? (2) When 
is KEI scheduled to have a full intercept test? (3) What would the 
mission of ABL actually look like?
    General Obering. (1) The Airborne Laser (ABL) and Kinetic Energy 
Interceptors (KEI) Elements of the Ballistic Missile Defense System 
(BMDS) are important boost phase development efforts that leverage 
technological progress to provide capability options to address future 
threats. Both Elements have specific knowledge points that must be 
achieved in order to demonstrate desired capability.
    ABL and KEI are both on track to meet their critical knowledge 
points: KEI is scheduled to flight test a prototype 2-stage booster in 
FY 2008; ABL is scheduled to conduct a lethal shoot-down of a ballistic 
missile target in 2009. Over the past two years, both Elements have 
made excellent progress in successfully achieving intermediate 
development milestones. Each successive capability demonstration 
contributes essential knowledge about the technical feasibility of 
these development efforts; knowledge that is required to make an 
informed decision.
    Specific examples of ABL's continuing success are: the 
demonstration of High Energy Laser operation on the ground; and the 
successful tracking of an airborne target from the ABL aircraft in 
flight.
    Specific examples of KEI's continuing success are: the ground test 
demonstrations of booster energetic performance; and demonstrated 
trapped ball thrust vector control capability for both first and second 
stages that increases mission flexibility.
    (2) Decisions about future flight tests, to include a full 
intercept test for KEI, will be made based on knowledge gained from 
booster program progress up to the scheduled knowledge points in FY 
2008 and 2009.
    (3) Based on the Air Force Air Combat Command Concept of Operations 
signed in March 2007, ABL will deploy from a Main Operating Base in the 
CONUS to a Forward Operating Location (FOL). The ABL will deploy with 
all equipment and sustainment supplies necessary for combat operations. 
ABL aircraft missions will depart from the FOL to the threat region of 
interest and position in a Combat Air Patrol (CAP) flight path. The CAP 
flight path is determined by an assigned area of interest, enemy 
threats, and other specific mission objectives. ABL CAP mission paths 
are dynamic in nature and may be repositioned based on intelligence 
updates and a changing battlespace. ABL will fly one CAP, nominally 6 
hours, refuel in-flight, and then fly a second CAP before returning to 
the FOL. During these CAPs, ABL will engage enemy missiles per Rules of 
Engagement that are defined during mission planning.
    Mr. Franks. In 1998, a matter of weeks before the North Korean 
missile launch, the Commission to Assess the Ballistic Missile Threat 
to the United States warned both of unexpected rogue state missile 
development, and of the threat of a ship launched missile. A freighter 
could bring a SCUD or Shahab to 300 miles of a U.S. coast. In the fall 
of 2001, former Defense Secretary Donald Rumsfeld noted how a rogue 
state had already tested a missile from a ship. What missile defense 
capabilities and systems (e.g., THAAD, SM-3, PAC-3, etc.) would be best 
suited to defend all 50 states from such an attack?
    General Obering. Terminal High-Altitude Area Defense (THAAD), Aegis 
Ballistic Missile Defense (BMD) Standard Missile (SM)-3 and Patriot 
Advanced Capability (PAC)-3 each provide a capability to defend against 
a SCUD or Shahab launched 300 miles from the coastline of the United 
States. An integrated surveillance network of coastal based AN/TPY-2 
class radars cued by overhead sensors would provide these weapon 
systems the tracking data needed to execute intercepts. Further 
analysis and requirement definition is needed to determine the best mix 
of sensors and interceptor systems needed to defend all 50 states from 
a ballistic missile launched within 300 miles of the U.
    Mr. Franks. In 1998, a matter of weeks before the North Korean 
missile launch, the Commission to Assess the Ballistic Missile Threat 
to the United States warned both of unexpected rogue state missile 
development, and of the threat of a ship launched missile. A freighter 
could bring a SCUD or Shahab to 300 miles of a U.S. coast. In the fall 
of 2001, former Defense Secretary Donald Rumsfeld noted how a rogue 
state had already tested a missile from a ship. What missile defense 
capabilities and systems (e.g., THAAD, SM-3, PAC-3, etc.) would be best 
suited to defend all 50 states from such an attack?
    General Campbell and Mr. McQueary. There have been a number of 
studies conducted on this issue, including technology efforts from the 
Missile Defense Agency (MDA) and Warfighter efforts from the U.S. 
Northern Command. A common theme from these studies is the need for an 
effective indication and warning capability to provide the necessary 
lead time to employ the requisite means against the potential threat. 
The existing and programmed missile defense program elements (e.g. 
Aegis Standard Missile-3, Terminal High Altitude Area Defense, and 
PATRIOT) provide a diversity of missile defense capabilities against 
all ranges of threat (e.g. short- to long-range ballistic missiles). 
However, most of the missile defense systems against shorter range 
threats have limited defended areas, that range from city-block to 
metropolitan areas; hence, the requisite number of elements to defend 
all 50 states quickly outpaces the existing and planned inventory. 
Toward that end, the Department is exploring innovative methods to 
protect larger areas with fewer missile defense systems. Examples 
include an effective command and control architecture that employs a 
diverse sensor networks and interceptors which have large kinematic 
ranges.
    Mr. Franks. What configuration of space-based interceptors would be 
necessary to fulfill the United States policy, passed overwhelmingly by 
the United States Congress and signed by President Clinton in 1999, to 
defend against limited attacks, whether ``accidental, unauthorized, or 
deliberate,'' originating from Russia or China? What work is being done 
now to provide defense against such attacks, whether accidental, 
unauthorized, or deliberate?
    Secretary Green. The U.S. missile defense program is not directed 
at either Russia or China. To address your question about space-based 
defenses, the Administration requested $10 million for FY 2008 to begin 
concept analysis and preparation for small-scale space-based 
experiments. These experiments will provide real data to answer a 
number of technical questions and help a future Administration make a 
more informed decision on whether or not to develop this capability. 
This approach is consistent with Presidential direction, including the 
National Space Policy and the National Policy on Ballistic Missile 
Defense.

                                  <all>

</pre></body></html>
